No. 20-___
IN THE

Supreme Court of the United States
————
MARYLAND SHALL ISSUE, INC., et al.,
Petitioners,

v.

LAWRENCE HOGAN, in his capacity of
Governor of Maryland,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
————
PETITION FOR WRIT OF CERTIORARI
————
CARY J. HANSEL
HANSEL LAW, P.C.
2514 North Charles Street
Baltimore, MD 21218
(301) 461-1040
cary@hansellaw.com

MARK W. PENNAK
Counsel of Record
MARYLAND SHALL ISSUE, INC.
9613 Harford Road
Ste. C #1015
Baltimore, MD 21234
(301) 873-3671
mpennak@
marylandshallissue.org

Counsel for Petitioners
December 21, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
This case is about whether the Takings Clause of the
Fifth Amendment and the Takings Clause and Due
Process Clause of the Maryland Constitution protect
lawfully acquired and lawfully owned personal property that the State legislature subsequently decided to
ban totally. In Horne v. Dep’t of Agric., 135 S.Ct. 2419,
2427-28 (2015), this Court held that “direct appropriations of real and personal property” are treated “alike.”
Yet, in a published ruling broadly applicable to all types
of personal property, the Fourth Circuit has ruled that
this holding in Horne applies to personal property only
if the regulation in question requires the owner to “turn
over” the property to the government or a third party.
The Fourth Circuit also construed the Maryland Constitution in such a way as to effectively eliminate any
protection for lawfully purchased personal property. The
court ignored petitioners’ request to certify basic questions
of Maryland property law to Maryland’s highest court.
The questions presented are:
1. Whether the Fourth Circuit erred in ruling that
this Court’s holding in Horne that appropriations of
personal property and real property must be treated
“alike” under the Takings Clause applies only where
the statute requires that the owner “turn over” the
personal property to the government or a third party.
2. Whether the Fourth Circuit erred, under Arizonans
for Official English v. Arizona, 520 U.S. 43 (1997),
Lehman Brothers v. Schein, 416 U.S. 386 (1974), Elkins
v. Moreno, 435 U.S. 647 (1978), and McKesson v. Doe,
--- S.Ct. ---, 2020 WL 6385692 (Nov. 2, 2020), in failing
to consider whether to certify petitioners’ Maryland
constitutional claims to Maryland’s highest court pursuant to a Maryland statute allowing such certifications.
(i)

ii
PARTIES TO THE PROCEEDINGS
Petitioner Maryland Shall Issue, Inc., is a not-forprofit Maryland corporation. Maryland Shall Issue is
an all-volunteer, non-partisan organization dedicated
to the preservation and advancement of gun owners’
rights in Maryland. The other petitioners are Paul
Mark Brockman, Robert and Caroline Brunger, and
David Orlin, who are individuals and members of
Maryland Shall Issue. They were plaintiffs in the
district court and plaintiffs-appellants in the court of
appeals.
Respondent is Lawrence Hogan in his official
capacity as Governor of the State of Maryland. He was
the defendant in the district court and defendantappellee in the court of appeals.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, petitioners state
as follows:
Petitioner Maryland Shall Issue, Inc., has no parent
corporation and no publicly held company owns 10
percent or more of its stock. The remaining petitioners
are individuals.

iv
LIST OF RELATED PROCEEDINGS
Pursuant to this Court’s Rule 14.1(b)(iii), petitioners
state that there are no “directly related” proceedings
pending in this Court or in other state or federal court,
as the term is defined by that Rule. Similar Takings
Clause legal issues concerning possessory interests in
property are presently pending before this Court in
Cedar Point Nursery v. Hassid, No. 20-107, --- S.Ct. ---, 2020 WL 6686019 (cert. granted, Nov. 13, 2020).

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDINGS ..................

ii

CORPORATE DISCLOSURE STATEMENT .....

iii

LIST OF RELATED PROCEEDINGS ................

iv

TABLE OF CONTENTS .....................................

v

TABLE OF AUTHORITIES ................................

viii

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ..............................

1

INTRODUCTION ................................................

1

STATEMENT OF THE CASE ............................

2

A. Statutory Background ..............................

2

B. Procedural History....................................

5

REASONS FOR GRANTING THE PETITION..

7

I. SUMMARY................................................

7

II. THE FOURTH CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
TAKINGS PRECEDENTS .......................

10

A. The Deprivation of the Right of
Possession Is Controlling ....................

10

B. Lucas Fully Applies to Personal
Property ................................................

16

C. The Owner’s “Point of View” Is
Controlling Under Loretto ...................

19

(v)

vi
TABLE OF CONTENTS—Continued
Page
III. THE FOURTH CIRCUIT’S DECISION
CONFLICTS WITH FEDERAL CIRCUIT PRECEDENT .................................

22

IV. THE FOURTH CIRCUIT MISCONSTRUED MARYLAND PROPERTY LAW
AND ERRED IN FAILING TO CERTIFY
STATE
LAW
QUESTIONS
TO
MARYLAND’S HIGHEST COURT ..........

25

A. The Fourth Circuit Misconstrued
Maryland Law .....................................

25

B. The Fourth Circuit Erred In Failing
To
Consider
Certification
To
Maryland’s Highest Court ...................

28

CONCLUSION ....................................................

31

APPENDIX
APPENDIX A:
Opinion of the United States Court of Appeals
for the Fourth Circuit, Maryland Shall Issue,
Inc., et al. v. Lawrence Hogan, No. 18-2474
(June 29, 2020) ....................................................

1a

APPENDIX B
Order of the United States Court of Appeals
for the Fourth Circuit Denying Petition for
Rehearing En Banc, Maryland Shall Issue, Inc.,
et al. v. Lawrence Hogan, No. 18-2474 (July 27,
2020) .....................................................................

44a

vii
TABLE OF CONTENTS—Continued
Page
APPENDIX C
Opinion and Order of the United States District
Court for the District of Maryland, Maryland
Shall Issue, Inc., et al. v. Lawrence Hogan, No.
1:18-cv-01700-JKB (Nov. 16, 2018) .....................

45a

APPENDIX D
Constitutional and Statutory Provisions Involved
U.S. Const. amend. V .......................................

88a

U.S. Const. amend. XIV, §1 .............................

88a

Maryland Declaration of Rights, §24 ..............

88a

Maryland Const. Art. III, §40 ..........................

89a

MD Code, Criminal Law, §4-301(m) ...............

89a

MD Code, Criminal Law, §4-305.1 ..................

89a

MD Code, Criminal Law, §4-306(a) .................

90a

MD Code, Courts & Judicial Proceedings,
§12–603.............................................................

90a

viii
TABLE OF AUTHORITIES
CASES

Page(s)

A & D Auto Sales, Inc. v. United States,
748 F.3d 1142 (Fed. Cir. 2014) ................. 23, 26
Andrus v. Allard,
444 U.S. 51 (1979) ....................................passim
Aposhian v. Barr,
958 F.3d 969, vacated and petition
for rehearing en banc granted,
973 F.3d 1151 (10th Cir. 2020) .................

4

Arizonans for Official English v. Arizona,
520 U.S. 43 (1997) ................................. 9, 29, 30
Arkansas Game and Fish Com’n v.
United States,
568 U.S. 23 (2012) ..................................... 13, 20
Armstrong v. United States,
364 U.S. 40 (1960) .....................................

21

Bair v. United States,
515 F.3d 1323 (Fed. Cir.), cert. denied,
555 U.S. 1084 (2008) ..................................

18

Brown v. Legal Found.,
538 U.S. 216 (2003) ...................................

20

Carroll v. United States,
267 U.S. 132 (1925) ...................................

11

Cedar Point Nursery v. Shiroma,
923 F.3d 524 (9th Cir. 2019), cert.
granted, No. 20-107, -- S.Ct. ---, 2020
WL 6686019 (Nov. 13, 2020) ...................passim
Chicago, B. & Q.R. Co. v. Chicago,
166 U.S. 226 (1897) ...................................

24

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Dennis v. Higgins,
498 U.S. 439 (1991) ...................................

22

Dodds v. Shamer,
339 Md. 540, 663 A.2d 1318 (1995) .......... 27, 28
Dua v. Comcast Cable,
370 Md. 604, 805 A.2d 1061 (2002) .......... 25, 27
Elkins v. Moreno,
435 U.S. 647 (1978) ................................... 9, 30
First English Evangelical Lutheran
Church of Glendale v. Los Angeles,
482 U.S. 304 (1987) ...................................

21

GOA v. Barr,
No. 19-1298 (6th Cir.) ...............................

4

Guedes v. BATF,
920 F.3d 1 (D.C. Cir. 2019), cert. denied,
140 S.Ct. 789 (2020) .................................. 4, 19
Horne v. Dep’t of Agric.,
135 S.Ct. 2419 (2015) ...............................passim
Horne v. Dept. of Agric.,
750 F.3d 1128 (9th Cir. 2014) ...................

10

Kaiser Aetna v. United States,
444 U.S. 164 (1979) .................................... 14, 15
Knick v. Township of Scott,
139 S.Ct. 2162 (2019) .................... 21, 24, 29, 30
Lehman Brothers v. Schein,
416 U.S. 386 (1974) ......................... 9, 29, 30, 31
Lingle v. Chevron U.S.A., Inc.,
544 U.S. 528 (2005) ............................. 12, 13, 16

x
TABLE OF AUTHORITIES—Continued
Page(s)
Loretto v. Teleprompter Manhattan
CATV Corp.,
458 U.S. 419 (1982) ..................................passim
Lucas v. South Carolina Coastal Council,
505 U.S. 1003 (1992) ................................passim
Lynch v. Household Fin. Corp.,
405 U.S. 538 (1972) ...................................

22

Maritrans, Inc. v. United States,
342 F.3d 1344 (Fed. Cir. 2003) .................

23

Maryland Shall Issue, Inc., et al. v. Hogan,
353 F.Supp.3d 400 (2018) .........................

1

Maryland Shall Issue, Inc., et al. v. Hogan,
963 F.3d 356 (2020) .................................passim
McBurney v. Young,
569 U.S. 221 (2013) ...................................

28

McCutchen v. United States,
No. 20-1188 (Fed. Cir.)...............................

4

McKesson v. Doe,
--- S.Ct. ----, 2020 WL 6385692
(Nov. 2, 2020) .................................. 9, 29, 30, 31
Murr v. Wisconsin,
137 S.Ct. 1933 (2017) ................................ passim
Muskin v. State Dept. of Assessments
and Taxation,
422 Md. 544, 30 A.3d 962 (2011) ........ 25, 26, 27
Nollan v. California Coastal Com’n.,
483 U.S. 825 (1987) ...................................

15

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Palazzolo v. Rhode Island,
533 U.S. 606 (2001) ..................................passim
Penn Cental Transp. Co. v. City of New York,
438 U.S. 104 (1978) ...................................

19

Pennsylvania Coal Co. v. Mahon,
260 U.S. 393 (1922) ................................... 12, 21
Phillips v. Washington Legal Found.,
524 U.S. 156 (1998) ....................... 14, 18, 28, 30
Pitsenberger v. Pitsenberger,
287 Md. 20, 410 A.2d 1052 (1980) ............ 26, 27
Preseault v. United States,
100 F.3d 1525 (Fed. Cir. 1996) (en banc) ...

18

Pumpelly v. Green Bay Co.,
13 Wall. (80 U.S.) 166 (1871) .................... 20, 22
R.J. Widen Co. v. United States,
174 Ct.Cl. 1020, 357 F.2d 988 (1966) ....... 22, 23
San Diego Gas & Elec. Co. v. City of San
Diego, 450 U.S. 621 (1981) .......................

21

Serio v. Baltimore County,
384 Md. 373, 863 A.2d 952 (2004) ...... 26, 27, 28
South Corp. v. United States,
690 F.2d 1368 (Fed. Cir. 1982) .................

23

Tahoe-Sierra Preservation Council, Inc. v.
Tahoe Regional Planning Agency,
535 U.S. 302 (2002) ................................... 15, 17
The Modern Sportsman, LLC v.
United States,
No. 20-1107 (Fed. Cir.) .............................

4

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Timbs v. Indiana,
139 S.Ct. 682 (2019) ..................................

24

United States v. General Motors,
323 U.S. 373 (1945) ............................. 13, 22, 28
United States v. Security Indus. Bank,
459 U.S. 70 (1982) .....................................

20

Webb’s Fabulous Pharmacies, Inc. v.
Beckwith,
449 U.S. 155 (1980) ...................................

18

Whitfield v. United States,
92 U.S. 165 (1875) .....................................

28

CONSTITUTIONS
U.S. Const. amend. V ..................................passim
U.S. Const. amend. XIV, §1 ..................... 1, 24, 27
MD Const. Art. III, §40 ...............................passim
MD Declaration of Rights, §24 ....................passim
STATUTES AND REGULATIONS
28 U.S.C. §1254(1) ........................................

1

28 U.S.C. §1291 ............................................

5

28 U.S.C. §1295(a) ........................................

24

28 U.S.C. §1331 ............................................

5

28 U.S.C. §1343 ............................................

5

Little Tucker Act, 28 U.S.C. §1346(a)(2) .....

24

Tucker Act, 28 U.S.C. §1491(a)(1) ...............

24

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
2018 Md. Laws ch. 252, SB-707 (April 24,
2018) .........................................................passim
MD Code, Crim. Law, §4-301(m) .................

1

MD Code, Crim. Law, §4-301(m)(1) .............

2

MD Code, Crim. Law, §4-301(m)(2) .............

2, 3

MD Code, Crim. Law, §4-305.1 ....................

1

MD Code, Crim. Law, §4-305.1(a) ...............

2

MD Code, Crim. Law, §4-306 .......................

1

MD Code, Crim. Law, §4-306(a) .................. 2, 11
MD Code, Cts. & Jud. Proc., §12–603 ..... 1, 8, 28-29
27 C.F.R. §478.11 .........................................

3

RULES
Sup. Ct. R. 10(a) ........................................... 24, 30
OTHER AUTHORITIES
“Contraband,” Black’s Law Dictionary
(11th ed. 2019) ..........................................

11

Final Rule, Bump-Stock-Type Devices, 83
Fed. Reg. 66514 (Dec. 26, 2018) ............. 3, 4, 19
Richard A. Epstein, Takings: Private
Property and the Power of Eminent
Domain 66 (1985) ...................................... 11, 20
S. Shapiro, et al., Supreme Court Practice
(11th ed. 2019) ................................ 7, 10, 30, 31
“Title,” Black’s Law Dictionary (11th ed.
2019)............................................................

28

PETITION FOR WRIT OF CERTIORARI
Petitioners Maryland Shall Issue, Inc., Paul Mark
Brockman, Robert and Caroline Brunger, and David
Orlin respectfully petition this Court for a Writ of
Certiorari to review the judgment of the United States
Court of Appeals for the Fourth Circuit.
OPINIONS BELOW
The Fourth Circuit’s opinion is reported at 963 F.3d
356 and reproduced at App.1a. The order denying
rehearing en banc is reprinted at App.44a. The district
court’s opinion is reported at 353 F.Supp.3d 400, and
is reproduced at App.45a.
JURISDICTION
The Fourth Circuit issued its opinion on June 29,
2020. Petitioners filed a timely petition for rehearing,
which the court denied on July 27, 2020. On March 19,
2020, this Court issued its COVID-19 Order, stating
that “the deadline to file any petition for a writ of
certiorari due on or after the date of this order is
extended to 150 days from the date of the lower court
judgment, order denying discretionary review, or
order denying a timely petition for rehearing.” (Order
List: 589 U.S.) (March 19, 2020). This petition is
timely under that Order. This Court has jurisdiction
under 28 U.S.C. §1254(1).
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
The Takings Clause of the Fifth Amendment, U.S.
Const. Amend. 5, Section 1 of the Fourteenth Amendment, U.S. Const. amend. 14, §1, 2018 Md. Laws ch. 252,
codified at MD Code,Criminal Law §§4-301(m), 4-305.1,
and 4-306, MD Code, Courts and Judicial Proceedings,

2
§12-603, §24 of the Maryland Declaration of Rights
and Article III, §40 of the Maryland Constitution are
reproduced at App.88a-91a.
STATEMENT OF THE CASE
A. Statutory Background
1. On April 24, 2018, Maryland Governor Larry
Hogan signed Senate Bill 707 (“SB-707”) into law. SB707 provides that a person may not “manufacture,
possess, sell, offer to sell, transfer, purchase, or receive
a rapid fire trigger activator” in Maryland. MD Code,
Criminal Law, §4-305.1(a). (App.89a). SB-707 bans a
“bump stock, trigger crank, hellfire trigger, binary trigger system, burst trigger system, or a copy or a similar
device, regardless of the producer or manufacturer.”
MD Code, Criminal Law, §4-301(m)(2). (Id.). In addition
to these specific devices, SB-707 has a catch-all provision that bans any “rapid fire trigger activator,” which
is defined to mean “any device” that, when installed in
or attached to a firearm, “increases” the “rate at which
a trigger is activated” “or” “the rate of fire increases.”
MD Code, Criminal Law, §4-301(m)(1). (Id.).
The court of appeals construed these provisions to
encompass devices that “increase the rate at which the
firearm is capable of firing.” (App.12a) (emphasis
omitted). The law thus applies to devices attached to
any firearm and covers any increase of the “rate of
fire,” no matter how slight. Violation of these provisions is a criminal misdemeanor subject to a term of
imprisonment up to three years, a fine of up to $5,000,
or both. MD Code, Criminal Law, §4-306(a). (App.90a).
SB-707 became effective October 1, 2018.
In their class action complaint, the petitioners did
not challenge the power of the State to ban “rapid
fire trigger activators.” Rather, petitioners sought “just

3
compensation” for the forced dispossession of their previously legal private property which they had lawfully
purchased and possessed prior to the enactment of
SB-707. The individual petitioners and members of
Maryland Shall Issue alleged that they legally owned
one or more “rapid fire trigger activators” and thus
had standing bring their claims for just compensation.
2. After Maryland enacted SB-707, the Federal Bureau
of Alcohol and Tobacco (“ATF”) issued new federal
regulations amending 27 C.F.R. §478.11, to redefine
“machine gun” to include “a bump-stock-type device,
i.e., a device that allows a semi-automatic firearm
to shoot more than one shot with a single pull of the
trigger by harnessing the recoil energy of the semiautomatic firearm to which it is affixed so that the
trigger resets and continues firing without additional
physical manipulation of the trigger by the shooter.”
Final Rule, Bump-Stock-Type Devices, 83 Fed. Reg.
66514 (Dec. 26, 2018). The ATF Rule states that
“persons in possession of bump-stock-type devices must
destroy or abandon the devices.” 83 Fed. Reg. at 66543.
Prior to this Rule, the ATF had, “between 2007 and
2017,” issued numerous approval letters to various
manufacturers, finding that these devices were mere
firearm accessories and thus unregulated by federal
law. 83 Fed. Reg. at 66517-18.
The ATF Rule does not ban “binary triggers” or
other devices that do not “harness[] the recoil energy”
of a “semi-automatic firearm.” 83 Fed. Reg. at 66534.
SB-707 is broader, as it applies to devices attached to
any firearm (not merely semi-automatics) and also
specifically bans binary triggers and other devices that
do not “harness the recoil energy” in this way. MD
Code, Criminal Law §4-301(m)(2). (App.89a). Unlike
the Maryland law, the ATF Rule also does not

4
encompass all devices that increase the “rate at which
a trigger is activated or the rate of fire increases,”
concluding that “there is no rate of fire that can
identify or differentiate a machinegun from a semiautomatic firearm.” 83 Fed. Reg. at 66533.
The ATF’s reinterpretation of “machinegun” remains
embroiled in litigation. In Guedes v. BATF, 920 F.3d 1
(D.C. Cir. 2019), cert. denied, 140 S.Ct. 789 (2020), the
D.C. Circuit, over the dissent of Judge Henderson, sustained a denial of the plaintiffs’ motion for a preliminary
injunction on the plaintiffs’ APA claims. But, in so
holding, the court confirmed that the possession of
these devices prior to the effective date of the Rule was
lawful and that the Rule was purely prospective. See
Guedes, 920 F.3d at 18, 20, 35. A similar challenge
to the ATF Rule is also now pending, en banc, in
the Tenth Circuit in Aposhian v. Barr, 958 F.3d 969,
vacated and petition for rehearing en banc granted,
973 F.3d 1151 (10th Cir. 2020). A challenge to the Rule
is also pending in GOA v. Barr, No. 19-1298 (6th Cir.)
(argued Dec. 11, 2019).
The destruction of property required by the ATF’s
reinterpretation has also been challenged as a taking
in two cases consolidated for argument before the Federal
Circuit. The Modern Sportsman, LLC v. United States,
No. 20-1107 (Fed. Cir.); McCutchen v. United States,
No. 20-1188 (Fed. Cir.) (argued Dec. 8, 2020). The issue
in both cases is whether prior owners whose bump
stocks were either destroyed or turned over to the
ATF, as required by the Rule, were entitled to just
compensation under the Takings Clause. See 83 Fed.
Reg. at 66547 (“ATF estimates that the total, undiscounted amount spent on bump-stock-type devices was
$102.5 million.”).

5
B. Procedural History
Petitioners filed suit in federal district court alleging that the bans imposed by SB-707 constituted a
“taking” under the federal Takings Clause and the
Maryland Takings Clause and Due Process Clause.
The complaint invoked the jurisdiction of the district
court under 28 U.S.C. §1331 and 28 U.S.C. §1343. The
district court dismissed the Fifth Amendment and
Maryland takings claims for failure to state a claim
upon which relief can be granted. (App.86a). The
district court ruled that SB-707 did not effect a taking
because “SB-707 involves neither a confiscation of
rapid fire trigger activators by the State of Maryland,
nor a mandate for Plaintiffs to cede title to or possession of them to the State.” (App.68a). Final judgment
was entered November 16, 2018. (Dkt. 35). Petitioners
filed a timely notice of appeal to the Fourth Circuit on
December 6, 2018. (Dkt. 36). The Fourth Circuit had
jurisdiction over that appeal under 28 U.S.C. §1291.
Over a scholarly dissent by Judge Richardson, the
Fourth Circuit affirmed. Citing Lucas v. South Carolina
Coastal Council, 505 U.S. 1003 (1992), and Loretto v.
Teleprompter Manhattan CATV Corp., 458 U.S. 419
(1982), the majority recognized that “[t]hough a ‘per
se’ taking originally only applied to physical takings,
the Supreme Court has held that regulatory takings,
too, can be per se.” (App.14a n.4). The majority also
recognized that this Court had expressly applied
Lucas and Loretto to personal property in Horne v.
Dep’t of Agric., 135 S.Ct. 2419, 2426 (2015). (Id.).
The majority nonetheless held that the complete
destruction of property rights imposed by SB-707
was not a per se taking. It reasoned that “the per se
regulatory taking in Lucas applies only to real property.” (App.14a n.4). It also held that “the per se

6
regulatory taking in Loretto is readily distinguishable
because SB-707 does not require or permit third parties
to take physical possession of the personal property”
and “does not require owners of the banned devices to
physically turn them over to the Government.” (Id.).
The majority purported to distinguish Horne on the
ground that the personal property there at issue was
“appropriated” by the government, while in this case
SB-707 “does not require owners of the banned devices
to physically turn them over to the Government”
(App.14a n.4) or “to a third party.” (App.18a). The
majority likewise held that plaintiffs had failed to
allege a takings claim under the Takings Clause of
the Maryland Constitution, Article III, §40 (App.88a),
because “SB-707 does not alter the rights Appellants
possessed when they purchased their rapid fire trigger
activators.” (App.20a).
Judge Richardson dissented. In his view, “[a] classic’
taking occurs not only when ‘government directly
appropriates private property,’ but also when it ‘ousts
the owner’ of possession—as Maryland does here.”
(App.21a) (citation omitted). The dissent explained
that, “[a]s originally understood, ‘the Takings Clause
reached only a direct appropriation of property, or the
functional equivalent of a practical ouster of the owner’s
possession.’” (App.27a, quoting Murr v. Wisconsin, 137
S.Ct. 1933, 1942 (2017), quoting Lucas, 505 U.S. at 1014).
The dissent further reasoned that “[t]he bedrock rights
of property are ‘to possess, use and dispose’ of an item”
and “the government takes property in the classic sense
when it eliminates each of these property rights.”
(App.32a). Judge Richardson found Horne to be on point,
explaining that Horne involved a per se physical taking
because the owners “los[t] the entire ‘bundle’ of property rights in the appropriated raisins—‘the rights to

7
possess, use and dispose of’ them.’” (App.33a, quoting
Horne, 135 S.Ct. at 2428, quoting Loretto, 458 U.S. at 435.
Judge Richardson concluded that Maryland’s “ban
on possession is not just ‘the functional equivalent of a
practical ouster of the owner’s possession,’ like the
permanent flooding of property . . . [a] possession ban
is an actual ouster.” (App.36a) (emphasis in original).
Such a ban “actually and physically defeats one’s
property rights—a classic taking.” (Id.). Judge
Richardson would have sustained the Maryland
Takings Clause and Maryland’s Due Process Clause
claims for the “same reasons.” (App.38a n.12).
Petitioners filed a timely petition for rehearing and
rehearing en banc in which petitioners requested (Pet.
at 18-19) that the court of appeals certify the state law
questions to the Maryland Court of Appeals. The
petition was denied by the court of appeals without
addressing that request.
REASONS FOR GRANTING THE PETITION
I. SUMMARY
1. The first issue is whether a State may destroy all
rights in previously lawfully acquired and lawfully
owned personal property without paying just compensation. The majority held that such a destruction may
be imposed where the State does not “require owners
of [the property] to turn them over to the Government
or to a third party.” (App.18a). The dissent would hold
that compensation is owed because “[a] possession
ban is an actual ouster” that “actually and physically
defeats one’s property rights—a classic taking.” (App.36a).
For the reasons stated by the dissent, the majority’s
decision is so clearly erroneous that summary reversal
is appropriate. See S. Shapiro, et al., Supreme Court
Practice, §5.12(c) at 5-44 (11th ed. 2019) (“Shapiro”).

8
This purely legal issue is fundamentally important
because it goes to the heart of whether personal property
is entitled to constitutional protection under the
Takings Clause.
2. The Fourth Circuit’s decision also creates a direct
conflict with the Federal Circuit which has long applied
Lucas to personal property and held that personal
property is protected without regard to whether the
government or a third party takes possession. The
Takings Clause cannot mean one thing for a federal
taking and something entirely different when the taking is done by a State, especially where the different
standards affect the same population of American citizens within the Fourth Circuit. This conflict warrants
plenary review.
3. The majority also misread the Maryland Constitution, Takings Clause, Article III, §40 and the
Maryland Constitution, Declaration of Rights, Due
Process Clause, §24 (App.88a), when it held that “SB707 does not alter the rights Appellants possessed
when they purchased their rapid fire trigger activators.” (App.20a). That holding necessarily means that
personal property is wholly unprotected by Maryland’s
Constitution, a result that is contrary to controlling
Maryland case law that the court below either misconstrued or ignored. Indeed, if the court of appeals is
correct, then Maryland has effectively allowed the
legislature to abolish personal property rights, a result
so onerous that it would violate the Takings Clause.
See Murr v. Wisconsin, 137 S.Ct. 1933 (2017), and
Palazzolo v. Rhode Island, 533 U.S. 606 (2001).
Given the gravity of its holding, the court of appeals
should have certified the state law questions to the
Maryland Court of Appeals pursuant to MD Code,
Cts. & Jud. Proc., §12–603 (App.90a), as petitioners

9
requested. This Court should thus either reverse the
Fourth Circuit’s patently incorrect and unconstitutional construction of Maryland law, or vacate and
instruct the Fourth Circuit to consider whether to
certify these questions of State property law to
Maryland’s highest court. See Arizonans for Official
English v. Arizona, 520 U.S. 43, 76 (1997), Lehman
Brothers v. Schein, 416 U.S. 386 (1974), Elkins v.
Moreno, 435 U.S. 647 (1978), and McKesson v. Doe, --S.Ct. ----, 2020 WL 6385692 (Nov. 2, 2020).
4. The takings issues presented by this case are
similar to and no less important than the takings
issues presented in Cedar Point Nursery v. Hassid, No.
20-107, --- S.Ct. ---, 2020 WL 6686019 (cert. granted,
Nov. 13, 2020). At issue in Cedar Point is whether
California’s regulatory imposition of an easement on
real property and the resulting loss of the right of
exclusive possession is a per se taking. If, as Horne
holds, appropriations of personal and real property are
to be treated “alike,” Horne, 135 S.Ct. at 2427-28, then
it follows a fortiori that a judgment for petitioners in
Cedar Point would likewise compel judgment for
petitioners here, as Maryland has ousted petitioners
of all possession, not just exclusive possession.
If, on the other hand, the Court holds that the
easement imposed by California in Cedar Point was
not a per se taking because it did not deprive the owner
of all strands of the bundle of rights, as the Ninth
Circuit held,1 then certiorari in this case would still be
appropriate to consider whether a regulatory destruction of all strands of the bundle of rights in personal
1

Cedar Point Nursery v. Shiroma, 923 F.3d 524, 532-33 (9th
Cir. 2019), cert. granted, No. 20-107, -- S.Ct. ---, 2020 WL 6686019
(Nov. 13, 2020).

10
property is a per se taking. Either way, a decision in
Cedar Point will likely inform the analysis in this case.
The Court should thus either grant review and
summarily reverse, or hold this petition pending a
decision in Cedar Point. See Shapiro, §4.16 at 4-49-450, §6.31(e) at 6-126.
II. THE FOURTH CIRCUIT’S DECISION CONFLICTS WITH THIS COURT’S TAKINGS
PRECEDENTS
A. The Deprivation of the Right of Possession Is Controlling
In Horne v. Dep’t. of Agric., 135 S.Ct. 2419, 2425
(2015), the question presented was “[w]hether the
government’s ‘categorical duty’ under the Fifth Amendment to pay just compensation when it ‘physically
takes possession of an interest in property,’ . . . applies
only to real property and not to personal property.”
The Court answered that question with a resounding
“no.” (Id). In so holding, this Court reversed the Ninth
Circuit’s holding that Lucas and Loretto did not apply
because personal property is entitled to “less protection.” Horne, 135 S.Ct. at 2425-26. Specifically, the
Ninth Circuit had held “Loretto applies only to a total,
permanent physical invasion of real property” and
read Lucas as holding that “the Takings Clause affords
less protection to personal than to real property.” Horne
v. Dept. of Agric., 750 F.3d 1128, 1139 (9th Cir. 2014).
In reversing the Ninth Circuit, this Court held that
“[n]othing in the text or history of the Takings Clause,
or our precedents, suggests that the [per se] rule is any
different when it comes to appropriation of personal
property,” and that the Takings Clause “protects ‘private property’ without any distinction between different
types.” (Horne, 135 S.Ct. at 2426). Ruling that “[t]he

11
Government has a categorical duty to pay just compensation when it takes your car, just as when it takes
your home,” (id.), the Court stressed “the established
rule of treating direct appropriations of real and personal property alike.” (Id. at 2427-28). That part of the
majority opinion (Part II) was expressly joined by
three other members of the Court. Horne, 135 S.Ct. at
2433 (Breyer, J., concurring in part, dissenting in part).
In every meaningful sense, petitioners here are in
the same position as the growers in Horne. Like the
growers, petitioners are “subject to” a statute that
deprives owners of their rights to “‘possess, use, and
dispose of’” their personal property. Horne, 135 S.Ct.
at 2428, quoting Loretto, 458 U.S. at 435. In Horne, the
growers refused “to obey” the order to give up their
raisins and the refusal resulted in a fine equal to the
market value of the raisins and a civil penalty of over
$200,000. Horne, 135 S.Ct. at 2425. In this case, a
failure “to obey” SB-707’s command to dispossess will
“subject” the property owner to a criminal fine and/or
up to three years in prison. MD Code, Criminal Law,
§4-306(a) (App.90a). As the dissent explained, Maryland
“requires owners to physically dispossess themselves—
or face imprisonment.” (App.36a). While SB-707 does
not expressly require owners to “physically turn them
over” (App.14a n.4), it bans mere possession and thus
authorizes the State to physically seize the property.
Carroll v. United States, 267 U.S. 132, 158 (1925). See
Black’s Law Dictionary 402 (11th ed. 2019) (defining
contraband). Either way, possession is lost by governmental edict. See Richard A. Epstein, Takings: Private
Property and the Power of Eminent Domain 66 (1985)
(“Epstein”) (“That the government has not taken
physical possession of the land is neither here nor
there. It clearly will enter the land by force if the

12
covenant it has created by fiat is not respected by the
parties who are subject to it.”).
The majority below refused to follow Horne, holding
that Lucas applies only to personal property and that
Loretto is limited to cases where the property has been
turned over to the government (or third party). (App.14a
n.4, 18a). These holdings accord personal property
“less protection” than real property and thus commit
the same error committed by the Ninth Circuit’s decision reversed in Horne. Horne, 135 S.Ct. at 2422.
According to the court of appeals, Horne applies only
to “appropriations” and, to the court of appeals, the
sine qua non of an “appropriation” of personal property
is not dispossession of the owner, but rather a required
physical transfer of the personal property to the possession of the government or a third party. (App.14a
n.4, 18a). Certiorari is necessary to address these
profoundly flawed readings of Horne, Lucas and Loretto.
The term “appropriation” has always included the
“practical ouster of possession” which is the “functional equivalent of” a “direct appropriation.” Lucas,
505 U.S. at 1014 (emphasis added). See also Murr v.
Wisconsin, 137 S.Ct. 1933, 1942 (2017) (noting that
prior to Pennsylvania Coal Co. v. Mahon, 260 U.S. 393
(1922), “it was generally thought that the Takings Clause
reached only a direct appropriation of property, or the
functional equivalent of a practical ouster of the owner’s
possession”) (emphasis added). A per se taking is thus
found where the regulation is so complete “that its effect
is tantamount to a direct appropriation or ouster.”
Lingle v. Chevron U.S.A., Inc., 544 U.S. 528, 538 (2005),
citing Mahon, 260 U.S. at 415 (emphasis added).
As Lingle explained, there are “two categories of
regulatory action that generally will be deemed per se
takings for Fifth Amendment purposes.” (544 U.S. at

13
539). The first is “where government requires an owner
to suffer a permanent physical invasion of her
property -- however minor.” (Id., citing Loretto, 458
U.S. at 419). The second is where “regulations completely deprive an owner of ‘all economically beneficial
us[e]’ of her property.” (Id., citing Lucas, 505 U.S. at
1019) (emphasis the Court’s). These categories are
“functionally equivalent to the classic taking in which
government directly appropriates private property or
ousts the owner from his domain.” Lingle, 544 U.S. at
539. See also Arkansas Game and Fish Com’n v.
United States, 568 U.S. 23, 31-32 (2012) (same). “The
paradigmatic taking . . . is a direct government appropriation or physical invasion of private property.”
Lingle, 544 U.S. at 537.
The ouster of possession is key. In Horne, the Court
stressed that the growers who were subject to the reserve
requirement had suffered a per se taking because they
lost “the entire ‘bundle’ of property rights in the
appropriated raisins—‘the rights to possess, use and
dispose of’ them” (Id. at 2428, quoting Loretto, 458 U.S.
at 435) (emphasis added). In short, the reserve requirement in Horne was merely the means of achieving this
“ouster” of property rights. As Judge Richardson
explained, Horne applied a per se rule because “the
government’s reserve requirement . . . eliminated the
handler’s property rights to possess, use, and dispose.”
(App.35a, citing Horne, 135 S.Ct. at 2427).
Loretto also focused on possession, noting that “[p]roperty rights in a physical thing have been described as
the rights ‘to possess, use and dispose of it.’” Loretto,
438 U.S. at 435, quoting United States v. General Motors
Corp., 323 U.S. 373, 378 (1945). Loretto explained that
when the government occupies property “it effectively
destroys each of these rights” because the owner loses

14
the right to “possess the occupied space for himself” and
has “no power to exclude the occupier from possession
and use of the space.” (Id.). As the Court reasoned, the
very definition of a physical taking is an act that “absolutely dispossesses the owner of his rights to use, and
exclude others from his property.” (Id. at 435 n.12).
A physical occupation is a taking because it causes
the loss of these rights, not because the government
assumes possession.
The right of possession was crucial to the result in
Andrus v. Allard, 444 U.S. 51, 65 (1979). There, the
Court sustained a federal regulatory ban on the sale of
eagle feathers because the “regulations challenged here
do not compel the surrender of the artifacts, and there
is no physical invasion or restraint upon them.” (Id.).
The Court stated “it is crucial that appellees retain the
rights to possess and transport their property, and to
donate or devise the protected birds.” (Id. at 66)
(emphasis added). Horne distinguishes Andrus on
precisely that basis, ruling that there was no taking in
Andrus because “the owners in that case retained the
rights to possess, donate, and devise their property.”
Horne, 135 S.Ct. at 2429. See also Phillips v.
Washington Legal Found., 524 U.S. 156, 170 (1998)
(“possession, control, and disposition are nonetheless
valuable rights that inhere in the property”). Here, as
the dissent states, SB-707 “destroy[s] all the rights the
Supreme Court found crucial in Andrus.” (App.35a).
The right of possession was also determinative in
Kaiser Aetna v. United States, 444 U.S. 164, 176 (1979),
where this Court stated that the right to exclusive
possession is “one of the most essential sticks in the
bundle of rights that are commonly characterized as
property,” and held that a regulation that required
marina proprietors to afford public access to a private

15
waterway was a taking. Kaiser ruled that this right
of exclusive possession is so “fundamental” that
“Government cannot take [it] without compensation.”
(444 U.S. at 179-80). See also Nollan v. California
Coastal Com’n., 483 U.S. 825, 831 (1987) (same). This
right of exclusive possession is also at issue in Cedar
Point, where the State imposed an access easement on
real property for the benefit of third-party union organizers. Here, the State has permanently destroyed all
rights of possession, not just the right of exclusive
possession.
The right of possession made all the difference in
Tahoe-Sierra Preservation Council, Inc. v. Tahoe Regional
Planning Agency, 535 U.S. 302, 324 n.19 (2002).
There, the Court distinguished a physical taking from
a regulatory taking on grounds that the latter does not
“dispossess the owner or affect her right to exclude
others.” (Id.). The Court held that the moratorium on
development did not deprive the landowner of “all economically beneficial uses” and thus was not a “functional
equivalent of an appropriation” under Lucas. (Id.).
In all these cases, the focus was on rights. In Horne,
the rights to “possess, use, and dispose” were lost, and
the Court held there was a per se taking. In Andrus,
the owners lost the right to sell eagle feathers but
retained the “crucial” rights to possess, devise and
donate, and the Court held that was no taking. Both
Horne and Andrus involved personal property. Neither
decision remotely suggested that the taking analysis
depended on whether the property is physically “turned
over” to the government or to a third party, as the
court of appeals held here. (App.14a n.4, 18a). Indeed,
if the court of appeals is correct, then Andrus could
have been decided on that basis alone, as the eagle
feathers were never “turned over” to the government.

16
Instead, this Court focused on the “crucial” rights
“retain[ed]” in holding that there was no taking. It is
impossible to reconcile the court of appeals’ analysis
with that of Horne and Andrus.
In short, SB-707 does “compel the surrender” of
possession and thus necessarily involves the “physical
invasion” of this personal property. Andrus, 444 U.S.
at 65. Such a statute is “functionally equivalent to the
classic taking in which government directly appropriates private property or ousts the owner from his
domain.” Lingle, 544 U.S. at 539. The dissent is thus
correct in concluding that “the government must compensate owners for their personal property if it physically
dispossesses owners,” because a ban on possession “is
an actual ouster.” (App.36a) (emphasis in original).
SB-707 “is a blunt chop through the bundle of rights”
(id.), that “goes beyond even those rights ‘effectively
destroyed’ in Loretto and Horne.” (Id. at 35a).
B. Lucas Fully Applies to Personal Property
The majority below held that Horne “has left intact
Lucas’ distinction between real and personal property
with regard to regulatory takings,” concluding that
“the per se regulatory taking in Lucas applies only to
real property.” (App.14a n.4) (emphasis in original).
The court purported (id.) to base this ruling on Horne’s
observation that “[w]hatever Lucas had to say about
reasonable expectations with regard to regulations,
people still do not expect their property, real or personal, to be actually occupied or taken away.” (135
S.Ct. at 2427). Certiorari is necessary to correct that
fundamentally wrong construction of Lucas and Horne.
Nothing in Lucas limits its underlying holding to
real property. The Court merely observed that “in the
case of personal property, by reason of the State’s

17
traditionally high degree of control over commercial
dealings, he ought to be aware of the possibility that
new regulation might even render his property
economically worthless (at least if the property’s only
economically productive use is sale or manufacture for
sale).” Lucas, 505 U.S. at 1027-28. On its face, that
statement suggests that personal property may be
rendered “economically worthless” by restricting sales,
not that the government is free to destroy all rights in
personal property, including the right of possession.
Indeed, Lucas cited Andrus as support, parenthetically noting that Andrus had sustained a “prohibition
on sale of eagle feathers.” (Id. at 1028). As explained
above, the “crucial” rights to possess, devise and
donate were not taken in Andrus.
Horne also explains that the controlling distinction
in Lucas was between a “physical taking[]” and “a
‘regulatory taking.’” Horne, 135 S.Ct. at 2427-28,
quoting Tahoe-Sierra, 535 U.S. at 323. Horne thus
stressed that “[t]he different treatment of real and
personal property in a regulatory case suggested by
Lucas did not alter the established rule of treating
direct appropriations of real and personal property
alike.” (Id. at 2427-28) (emphasis added). Tahoe-Sierra
makes clear that a “regulatory case” does not include
a case where the government conduct at issue
“dispossess the owner or affect her right to exclude
others.” Tahoe-Sierra, 535 U.S. at 324 n.19. As Judge
Richardson stated, a “possession ban does not make
property ownership uneconomical or undesirable, as in
a regulatory taking. It actually and physically defeats
one’s property rights—a classic taking.” (App.36a).
The majority’s refusal to apply Lucas to personal
property allows the State to destroy all rights in such
property simply by labeling the destruction “regula-

18
tory.” That result is at war with Lucas’ holding that “a
‘State, by ipse dixit, may not transform private property
into public property without compensation.’” Lucas,
505 U.S. at 1031. That statement applies equally to
personal property as it is a quotation from Webb’s
Fabulous Pharmacies, Inc. v. Beckwith, 449 U.S. 155,
164 (1980), a personal property case where the Court
found a taking of accrued interest on interpleader
funds deposited in the registry of a State court. See
also Phillips, 524 U.S. at 167 (holding that interest
on attorney IOLTA accounts was private property
under “traditional property law principles”). Here, as
in Lucas and Webb’s, all property rights are stripped
from the owners by government edict without regard
to any “independent source,” such as “background principles of the State’s law of property and nuisance.”
Lucas, 505 U.S. at 1030. That SB-707 did not require
that physical possession be turned over to the
government (or to a third party) is no more controlling
here than it was in Lucas.
Purporting to reply on Lucas, the court of appeals
also wrongly suggested that the devices banned by
Maryland are “heavily regulated” and thus plaintiffs
should have expected a total ban on possession.
(App.18a). Yet, in per se taking cases, “[t]he expectations of the individual, however well- or ill-founded,
do not define for the law what are that individual’s
compensable property rights.” Preseault v. United
States, 100 F.3d 1525, 1540 (Fed. Cir. 1996) (en banc).
As explained by the Federal Circuit in Bair v. United
States, 515 F.3d 1323, 1330 (Fed. Cir.), cert. denied,
555 U.S. 1084 (2008), property rights cannot be “defined”
or “limited” by the possibility of “‘future regulatory
activity.’” (Citation omitted).

19
“[I]investment-backed expectations are, of course,
relevant considerations” under Penn Cent. Transp. Co.
v. City of New York, 438 U.S. 104, 124 (1978). But that
principle applies to non-categorial takings. Lingle, 544
U.S. at 538-39. Whether a regulation is a per se
taking turns on whether the owners have “retained the
rights to possess, donate, and devise their property.”
Horne, 135 S.Ct. at 2429. The court of appeals thus
improperly applied an element of the Penn Central
test to the per se takings analysis while failing to apply
the correct standard set out in Horne, Andrus, Lucas
and Loretto.
More fundamentally, heavy regulation might lead
owners to expect a regulatory ban on sales, as noted
in Lucas and discussed in Andrus, but people do not
“expect” that the continued possession of their lawfully
acquired personal property will be banned and their
owners carted off to jail. That is especially true where,
as here, the property was acquired only after a federal
agency (the ATF) had issued multiple rulings over a
ten year period finding that this very type of property
was completely lawful to purchase and possess. See
Guedes v. BATF, 140 S.Ct. 789, 790 (2020) (Gorsuch,
J., statement regarding certiorari) (noting that bump
stocks were legal “[f]or years” under the ATF’s prior
interpretation). See also Guedes, 920 F.3d at 18, 20, 35
(holding that bump stocks were lawfully possessed
prior to the effective date of the ATF’s new Rule). Contrary
to the majority’s suggestion, this property was not
regulated at all prior to the enactment of SB-707.
C. The Owner’s “Point of
Controlling Under Loretto

View”

Is

The majority below held that “the per se regulatory
taking in Loretto is readily distinguishable because
SB-707 does not require or permit third parties to take

20
physical possession of the personal property.” (App.14a
n.4). That holding is irreconcilable with United States
v. General Motors Corp., 323 U.S. 373, 378 (1945),
where this Court stated that “the deprivation of
the former owner rather than the accretion of a right
or interest to the sovereign constitutes the taking.”
That principle is well-established. See Brown v. Legal
Found., 538 U.S. 216, 235-36 (2003) (“the ‘just compensation’ required by the Fifth Amendment is measured
by the property owner’s loss rather than the government’s gain”); United States v. Security Indus. Bank,
459 U.S. 70, 78 (1982) (“our cases show that takings
analysis is not necessarily limited to outright acquisitions by the government for itself”); Arkansas Game
and Fish, 568 U.S. at 33 (“takings claims” are “not
confined to instances in which the Government took
outright physical possession of the property involved”).
See also Epstein at 66 (“That the government has not
taken physical possession of the land is neither here
nor there.”).
For example, in Pumpelly v. Green Bay Co., 13 Wall.
(80 U.S.) 166 (1871), this Court held that the owner’s
land had been taken by virtue of flooding caused by
the government. In so holding, the Court stated that
“[i]t would be a very curious and unsatisfactory result,
if . . . it shall be held that if the government refrains
from the absolute conversion of real property . . . it can,
in effect, subject it to total destruction without making
any compensation, because in the narrowest sense
of that word, it is not taken for the public use.” (Id. at
177-78) (emphasis the Court’s). As Judge Richardson
explained, “Pumpelly was a taking because the owners’
property rights were destroyed, not because their
rights were transferred to another—indeed, no transfer
occurred at all.” (App.39a).

21
Similarly, in Lucas, the Court stated that a per se
rule was justified because “that total deprivation of
beneficial use is, from the landowner’s point of view,
the equivalent of a physical appropriation.” Lucas, 505
U.S. at 1017 (emphasis added). In so noting, Lucas
relied on the dissent in San Diego Gas & Elec. Co. v.
City of San Diego, 450 U.S. 621, 653 (1981), where
Justice Brennan made the same point, explaining
that “[i]t is only logical, then, that government action
other than acquisition of title, occupancy, or physical
invasion can be a ‘taking,’ and therefore a de facto
exercise of the power of eminent domain, where the
effects completely deprive the owner of all or most of his
interest in the property.” (Emphasis added). Justice
Brennan stressed that such deprivation is determined
“[f]rom the property owner’s point of view,” because
“the effect” of the government action “is to deprive him
of all beneficial use” of the property. (Id. at 652)
(emphasis added). Knick v. Township of Scott, 139
S.Ct. 2162, 2172 & n.4 (2019), and First English
Evangelical Lutheran Church of Glendale v. Los
Angeles, 482 U.S. 304, 315-18 (1987), likewise relied
heavily on Justice Brennan’s view of a taking.
Finally, there is no “fairness and justice” in making
these lawful property owners bear all the burdens
created by SB-707. Murr, 137 S.Ct. at 1943. If a ban of
these lawfully acquired items is in the public interest,
then the costs “of the relief afforded in the public
interest” should “be borne by the public,” not imposed
exclusively on innocent owners. Armstrong v. United
States, 364 U.S. 40, 49 (1960). As stated in Mahon, “a
strong public desire to improve the public condition is
not enough to warrant achieving the desire by a
shorter cut than the constitutional way of paying for
the change.” (260 U.S. at 416). See also Horne, 135
S.Ct. at 2427 (quoting Mahon). As the dissent states,

22
“constitutional restraints on the government’s power
over private property are deeply rooted in our history,
and they have been integral to the preservation of
personal liberty and improved human condition over
time.” (App.43a). Accord Murr, 137 S.Ct. at 1943 (stressing the importance of “freedoms at the core of private
property ownership”); Lynch v. Household Fin. Corp.,
405 U.S. 538, 552 (1972) (“That rights in property are
basic civil rights has long been recognized.”); Dennis v.
Higgins, 498 U.S. 439, 443 (1991) (same). Certiorari
here is necessary to protect these basic rights.
III. THE FOURTH CIRCUIT’S DECISION
CONFLICTS WITH FEDERAL CIRCUIT
PRECEDENT
The majority’s refusal to apply Lucas to personal
property and the limitation it imposed on Loretto are
in direct conflict with Federal Circuit precedent which
has long held that personal property, including tangible property and contract rights, are fully protected
by categorical rules without regard to whether the
property was “turned over” to the government. The
same sort of conflict with Federal Circuit precedent is
also presented in Cedar Point. As there, the conflict
presented here should not be allowed to stand.
In R.J. Widen Co. v. United States, 174 Ct.Cl. 1020,
357 F.2d 988, 993 (1966), the Court of Claims applied
General Motors and Pumpelly to assess a takings claim
for loss of personal property and the value of a business. The court reasoned that the government need
not “directly appropriate the title, possession or use of
the properties in question since it is ‘the deprivation of
the former owner rather than the accretion of a right
or interest to the sovereign (which) constitutes the
taking.’” (Id., quoting General Motors, 323 U.S. at 378).
The court explained that “[t]he principle is applicable

23
to personal property where ‘the owner is deprived of its
use . . . as the natural consequence of the deliberate,
intended exercise of an asserted power’ of the
government.” (Id.) (citation omitted). The “decisive
factor,” the court ruled, is that “the personal property
or other rights had been directly appropriated or
destroyed by actions of agents or officials of the
government.” (Id.). Petitioners’ property rights here
have been “destroyed.”2
In Maritrans, Inc. v. United States, 342 F.3d 1344
(Fed. Cir. 2003), a barge owner challenged a federal
statute banning the use of single hull oil barges on
navigable waterways as a per se taking. The Federal
Circuit applied Andrus to hold that the owner’s barges
were protected property under the Takings Clause,
noting that “tangible property may be the subject of a
takings claim.” (Id. at 1352). The court then applied
Lucas and ruled that “in determining whether a categorical taking occurred in this case, we must decide
whether [the plaintiff] was called upon to sacrifice all
economically beneficial uses of its single hull tank
barges.” (Id. at 1354). The court held that the owners
had not suffered such a loss because the law allowed
the owner to retrofit its barges. (Id. at 1354-55).
Petitioners here have no such options.
In A & D Auto Sales, Inc. v. United States, 748 F.3d
1142, 1152 (Fed. Cir. 2014), the Federal Circuit
applied Lucas and held that car dealers’ franchise
contract rights were “property,” noting that “[w]e have
applied the categorical test to personal property.” The
court found that the allegation that the government
2

R.J. Widen is binding precedent in the Federal Circuit. South
Corp. v. United States, 690 F.2d 1368, 1370 (Fed. Cir. 1982) (en
banc) (adopting Court of Claims decisions).

24
“coerced” the manufacturer into nullifying the franchisees’ contract rights was sufficient to state a takings
claim. (Id. at 1154-56). The destruction of rights in A
& D Auto is indistinguishable in principle from the
destruction of property rights here. None of these cases
suggested that Lucas is limited to real property or
required that the property be “turned over” to the government or a third party in order to state a takings claim.
Under 28 U.S.C. §1295(a), the Federal Circuit has
nationwide, exclusive appellate jurisdiction over
federal taking issues arising under the Tucker Act, 28
U.S.C. §1491(a)(1), or the Little Tucker Act, 28 U.S.C.
§1346(a)(2). The Takings Clause has been applicable
to the States for over 120 years. Chicago, B. & Q.R. Co.
v. Chicago, 166 U.S. 226, 239 (1897). Thus, decisions
of the Federal Circuit establish precedent that are
fully applicable to State takings. As this Court has
recently stressed, “[i]ncorporated Bill of Rights guarantees are ‘enforced against the States under the
Fourteenth Amendment according to the same standards that protect those personal rights against federal
encroachment.’” Timbs v. Indiana, 139 S.Ct. 682, 687
(2019) (citation omitted).
Allowing the Fourth Circuit’s decision to stand
would eviscerate that principle. Federal takings arising
within the Fourth Circuit are adjudicated under
Federal Circuit precedent. Yet, State takings in the
five States comprising the Fourth Circuit are now
governed by the majority’s conflicting opinion in this
case. The right to recover for a taking accrues “when
[the government] takes property without compensation.” Knick, 139 S.Ct. at 2177. That right cannot turn
on which sovereign does the taking. By any measure,
the conflict posed here involves an “important matter”
within the meaning of Rule 10(a) of this Court’s Rules.

25
IV. THE FOURTH CIRCUIT MISCONSTRUED
MARYLAND PROPERTY LAW AND ERRED
IN FAILING TO CERTIFY STATE LAW
QUESTIONS TO MARYLAND’S HIGHEST
COURT
A. The Fourth Circuit
Maryland Law

Misconstrued

The majority below also interpreted “property” in a
way that renders personal property unprotected by
both the Maryland Takings Clause, Article III, §40,
and the Due Process Clause, Article 24 of the Maryland
Declaration of Rights. (App.88a-89a). It did so even
though Maryland’s highest court has held that these
provisions are interpreted in pari materia with the
Fifth Amendment, fully encompass personal property
and may even afford more protection than the Fifth
Amendment. See, e.g., Dua v. Comcast Cable, 370 Md.
604, 805 A.2d 1061, 1072 (2002) (“No matter how
‘rational’ under particular circumstances, the State is
constitutionally precluded from abolishing a vested
property right or taking one person’s property and
giving it to someone else.”).
The majority, purporting to rely on Muskin v. State
Dept. of Assessments and Taxation, 422 Md. 544, 30
A.3d 962, 968 (2011), held that a taking required that
the statute be retroactive. (App.19a). SB-707 was not
retroactive, the court reasoned, because it did not
“impose new liability back to the date of purchase” and
petitioners “had fair notice of the change in law”
because it “was passed six months before it went
into effect.” (App.20a). Such notice and the lack of
retroactive criminal liability might well be pertinent
to a procedural due process or Ex Post Facto claim, but
they do not control as to whether SB-707 destroyed a

26
vested property right protected by the Maryland
Constitution.
Indeed, the majority skipped over a portion of
Muskin where the Maryland Court of Appeals explained
that “[r]etrospective statutes are those ‘acts which
operate on transactions which have occurred or rights
and obligations which existed before passage of the
act.’” (30 A.3d at 969) (citation omitted). That is also
the rule under the Fifth Amendment. See Lucas, 505
U.S. at 1027 (to escape the Takings Clause, the government must show “that the proscribed use interests
were not part of [the owner’s] title to begin with”);
Palazzolo v. Rhode Island, 533 U.S. 606, 630 (2001)
(same); A & D Auto Sales, 748 F.3d at 1152 (same).
Here, SB-707 necessarily “retrospectively operate[s]”
on the purchase “transactions” which “occurred” “before
passage” of SB-707 by destroying all the property
rights that arise from such prior purchases. Muskin,
30 A.3d at 969.
The majority below also ignored Serio v. Baltimore
County, 384 Md. 373, 863 A.2d 952, 967 (2004), where
the Maryland Court of Appeals held that Maryland’s
Taking’s Clause and Due Process Clause are violated
“[w]henever a property owner is deprived of the
beneficial use of his property or restraints are imposed
that materially affect the property’s value, without
legal process or compensation.” Serio applied that rule
to hold that the refusal of a county police department
to relinquish a firearm so that a convicted felon could
exercise his remaining “ownership” interest violated
these provisions of the Maryland Constitution. (863
A.2d at 966, 968).
Maryland’s highest court was equally clear in
Pitsenberger v. Pitsenberger, 287 Md. 20, 410 A.2d
1052, 1057-1060 & n.5 (1980), where the court ruled

27
that “possessory interests” in personal property “are
within the protection of the Fourteenth Amendment”
and that “Article III, §40 and the Fourteenth Amendment have the same meaning in reference to a ‘taking’
of property.” Petitioners relied on Dua, Serio, Muskin,
Pitsenberger and other Maryland cases in arguing that
their “vested” property rights had been taken.3 Yet,
the majority misconstrued Muskin and ignored all
these other decisions.
Even more inexplicable is the majority’s holding
that “SB-707 does not alter the rights Appellants
possessed when they purchased their rapid fire trigger
activators.” (App.20a). As no one disputes that petitioners lawfully possessed these items prior to the
enactment of SB-707, that ruling is, in effect, a holding
that a prior, lawful purchase of these items did not
give rise to any property right to possess these items.
That ruling is just wrong. In Maryland, “property is a
term that has broad and comprehensive significance;
it embraces ‘everything which has exchangeable value
or goes to make up a man’s wealth . . . .’” Dodds v.
Shamer, 339 Md. 540, 663 A.2d 1318, 1322 (1995)
(citation omitted) (emphasis added). See Serio, 863
A.2d at 965 (relying on Dodds). The personal property
items banned by SB-707 indisputably had “exchangeable value” when they were purchased. The majority’s

3

The majority below recognized that petitioners had argued
that SB-707 destroyed their “vested” rights under the Maryland
Constitution, but ruled that petitioners had not specifically argued
that SB-707 was “retrospective” in their opening brief. (App.19a).
The court purported to affirm the district court on that basis.
(Id.). That ruling is specious. Petitioners preserved their state law
takings contentions by extensively arguing that their “vested”
property rights in these items had been destroyed by SB-707. No
more is required.

28
ruling cannot be reconciled with this definition of
“property” applied in Dodds and Serio.
The court’s holding that petitioners’ existing rights
were not “alter[ed]” by SB-707 also conflicts with “traditional property law principles” long recognized by this
Court. Phillips, 524 U.S. at 167. See Palazzolo, 533
U.S. at 630 (discussing “essential Takings Clause principles”). Property “denote[s] the group of rights inhering
in the citizen’s relation to the physical thing, as the
right to possess, use and dispose of it.” General Motors
Corp., 323 U.S. at 378. Thus, “[t]he constitutional
provision is addressed to every sort of interest the
citizen may possess.” (Id.). See also Loretto, 438 U.S.
at 435. Those rights include personal property acquired
by purchase. See, e.g., Whitfield v. United States, 92
U.S. 165, 170 (1875) (“A sale of personal property,
when completed, transfers to the purchaser the title
of the property sold.”). “Title” is “[t]he union of all
elements (as ownership, possession, and custody) constituting the legal right to control and dispose of
property.” Black’s Law Dictionary 1788 (11th ed. 2019).
See also Phillips, 524 U.S. at 169-71. Cf. McBurney v.
Young, 569 U.S. 221, 229 (2013) (“the right to ‘take,
hold and dispose of property, either real or personal,’
has long been seen as one of the privileges of
citizenship”) (citation omitted). In short, the court of
appeals is so plainly wrong that summary reversal is
warranted.
B. The Fourth Circuit Erred In Failing To
Consider Certification To Maryland’s
Highest Court
Petitioners detailed the court’s errors in their
rehearing petition and alternatively urged (Pet. at 1819) that the court certify the state law questions to the
Maryland Court of Appeals pursuant to MD Code, Cts.

29
& Jud. Proc., §12–603. (App.90a). The court ignored
the request and that failure to at least consider certification cannot be justified. As explained in Arizonans
for Official English, “[c]ertification procedure . . .
allows a federal court faced with a novel state-law
question to put the question directly to the State’s
highest court, reducing the delay, cutting the cost, and
increasing the assurance of gaining an authoritative
response.” (520 U.S. at 76). See also Lehman Brothers,
416 U.S. at 391 (same).
Certification may often be appropriate in takings
cases. Under Knick, plaintiffs may now seek immediate relief in federal court for State takings. Nearly
every State has a counterpart to the Fifth Amendment’s Takings Clause. The two claims, federal and
State, will likely be joined in future federal suits
cognizable under Knick, just as they were joined in
this case. Certification would preserve the right of
access to the federal courts recognized in Knick, while
accommodating federalism concerns by respecting the
right of the State courts to authoritatively adjudicate
uncertain questions of State law. See Knick, 139 S.Ct.
at 2188 (Kagan, J., dissenting) (“federal courts should
refrain whenever possible from deciding novel or
difficult state-law questions”); McKesson, slip op. at 4
(same).
These federalism concerns are especially present
here. While the definition of “property” under the Fifth
Amendment may often be a matter of State property
law, Lucas, 505 U.S. at 1030, “States do not have
unfettered authority to ‘shape and define property
rights.’” Murr, 137 S.Ct. at 1944-45, quoting Palazzolo,
533 U.S. at 626-27. If Maryland law actually states
that no property rights are acquired by purchase, as
the court of appeals held, then Maryland law is “so

30
unreasonable or onerous as to compel compensation.”
Palazzolo, 533 U.S. at 627. See Phillips, 524 U.S. at
167 (“[A] State may not sidestep the Takings Clause
by disavowing traditional property interests long
recognized under state law.”). Such an extraordinary
ruling should be made by the Maryland Court of
Appeals in the first instance, not by the Fourth
Circuit. See Elkins v. Moreno, 435 U.S. 647, 662 n.16
(1978) (sua sponte certifying a state law question to
the Maryland Court of Appeals, stating “it is obviously
desirable that questions of law which . . . are both
intensely local and immensely important to a wide
spectrum of state government activities be decided in
the first instance by state courts”).
In sum, by failing to consider certification, the court
of appeals “departed from the accepted and usual
course of judicial proceedings” within the meaning of
Rule 10(a) of this Court’s Rules. See Shapiro, §4.15 at
4-47. The rationale for certification has been set out
repeatedly in Arizonans for Official English, Lehman
Brothers, Elkins and McKesson. See also Knick, 139
S.Ct. at 2190 (Kagan, J., dissenting) (“this Court has
promoted practices of certification and abstention to
put difficult state-law issues in state judges’ hands”).
An exercise of this Court’s supervisory authority is
necessary to make clear that the lower federal courts
have an affirmative, independent duty to consider
whether to certify these types of fundamentally
important state law questions.
Certification “rests in the sound discretion of the
federal court,” Lehman Brothers, 416 U.S. at 391. In
Lehman Brothers and in McKesson, this Court vacated
the judgment of the court of appeals and remanded
with instructions to consider whether to certify state
law questions. This Court should either summarily

31
reverse or follow Lehman Brothers and McKesson and
vacate and remand with instructions to consider certification. See Shapiro, §9.4 at 9-11 (collecting cases).
CONCLUSION
The petition for certiorari should be granted. The
judgment below on the federal takings claims should
be summarily reversed. The judgment below on the
state law claims should be summarily reversed or
vacated and remanded with instructions to consider
certification. Alternatively, the petition should be held
pending a decision in Cedar Point.
Respectfully submitted,
CARY J. HANSEL
HANSEL LAW, P.C.
2514 North Charles Street
Baltimore, MD 21218
(301) 461-1040
cary@hansellaw.com

MARK W. PENNAK
Counsel of Record
MARYLAND SHALL ISSUE, INC.
9613 Harford Road
Ste. C #1015
Baltimore, MD 21234
(301) 873-3671
mpennak@
marylandshallissue.org

Counsel for Petitioners
December 21, 2020

APPENDICES

APPENDIX TABLE OF CONTENTS
Page
APPENDIX A:
Opinion of the United States Court of Appeals
for the Fourth Circuit, Maryland Shall Issue,
Inc., et al. v. Lawrence Hogan, No. 18-2474
(June 29, 2020) ....................................................

1a

APPENDIX B
Order of the United States Court of Appeals
for the Fourth Circuit Denying Petition for
Rehearing En Banc, Maryland Shall Issue, Inc.,
et al. v. Lawrence Hogan, No. 18-2474 (July 27,
2020) .....................................................................

44a

APPENDIX C
Opinion and Order of the United States District
Court for the District of Maryland, Maryland
Shall Issue, Inc., et al. v. Lawrence Hogan, No.
1:18-cv-01700-JKB (Nov. 16, 2018) .....................

45a

APPENDIX D
Constitutional and Statutory Provisions Involved
U.S. Const. amend. V .......................................

88a

U.S. Const. amend. XIV, §1 .............................

88a

Maryland Declaration of Rights, §24 ..............

88a

Maryland Const. Art. III, §40 ..........................

89a

MD Code, Criminal Law, §4-301(m) ...............

89a

MD Code, Criminal Law, §4-305.1 ..................

89a

MD Code, Criminal Law, §4-306(a) .................

90a

MD Code, Courts & Judicial Proceedings,
§12–603.............................................................

90a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
————
No. 18-2474
————
MARYLAND SHALL ISSUE, INCORPORATED;
PAUL MARK BROCKMAN; ROBERT BRUNGER;
CAROLINE BRUNGER; DAVID ORLIN, all of the above
individually named plaintiffs on behalf of
themselves and all others similarly situated,
Plaintiffs-Appellants,
v.
LAWRENCE HOGAN, in his
capacity of Governor of Maryland,
Defendant-Appellee.
GIFFORDS LAW CENTER TO PREVENT GUN VIOLENCE,
Amicus Supporting Appellee.
————
Appeal from the United States District Court
for the District of Maryland, at Baltimore.
James K. Bredar, Chief District Judge.
(1:18-cv-01700-JKB)
————
Argued: January 29, 2020
Decided: June 29, 2020
————
Before FLOYD, THACKER and RICHARDSON,
Circuit Judges.
————

2a
Affirmed by published opinion. Judge Thacker wrote
the opinion, in which Judge Floyd joined. Judge
Richardson wrote an opinion concurring in the judgment in part and dissenting in part.
ARGUED: Mark William Pennak, MARYLAND SHALL
ISSUE, INC., Annapolis, Maryland, for Appellants.
Adam Dean Snyder, OFFICE OF THE ATTORNEY
GENERAL OF MARYLAND, Baltimore, Maryland,
for Appellee. ON BRIEF: Cary J. Hansel, Erienne A.
Sutherell, HANSEL LAW, P.C., Baltimore, Maryland,
for Appellants. Brian E. Frosh, Attorney General,
Jennifer L. Katz, Assistant Attorney General, OFFICE
OF THE ATTORNEY GENERAL OF MARYLAND,
Baltimore, Maryland, for Appellee. Scott A. Edelman,
Los Angeles, California, Kathryn Cherry, Dallas,
Texas, Vivek R. Gopalan, GIBSON, DUNN &
CRUTCHER, San Francisco, California; Hannah
Shearer, San Francisco, California. J. Adam Skaggs,
GIFFORDS LAW CENTER TO PREVENT GUN
VIOLENCE, New York, New York, for Amicus Curiae.
THACKER, Circuit Judge:
On its own behalf and on behalf of its members,
Maryland Shall Issue, Inc. (“MSI”) challenges a
Maryland statute banning “rapid fire trigger activators” – devices that, when attached to a firearm,
increase its rate of fire or trigger activation. MSI
argues the statute violates the Takings Clause of
the United States Constitution as well as Maryland’s
takings provisions. And because the statute does not
define “rate of fire” or “trigger activation,” MSI also
argues it is void for vagueness. The district court held
MSI did not have organizational standing to pursue
these claims on its own behalf and also rejected its
substantive contentions.

3a
Because we agree with the district court that MSI
lacks standing and that the Complaint otherwise fails
to state a claim, we affirm for the reasons detailed
herein.
I.
On April 24, 2018, Maryland Governor Lawrence
Hogan (“Appellee” or “Maryland”) signed Senate Bill
707 (“SB-707”) into law. SB-707 makes it unlawful for
any person to “manufacture, possess, sell, offer to sell,
transfer, purchase, or receive a rapid fire trigger activator” or to “transport” such a device into the state.
SB-707, sec. 2, § 4-305.1(a). Violation of SB-707 is a
criminal misdemeanor subject to a term of imprisonment of up to three years, a fine of up to $5,000, or
both. Id., sec. 1, § 4-306(a).
SB-707 defines “rapid fire trigger activator” as “any
device, including a removable manual or power-driven
activating device, constructed so that, when installed
in or attached to a firearm the rate at which the trigger
is activated increases; or the rate of fire increases.”
SB-707, sec. 1, § 4-301(M)(1). In addition to any other
device which increases the rate of trigger activation or
fire, SB-707 specifies that the following enumerated
devices are rapid fire trigger activators: “a bump stock,
trigger crank, hellfire trigger, binary trigger system,
burst trigger system, or a copy or a similar device,
regardless of the producer or manufacturer.” Id.
§ 4-301(M)(2). Further, SB-707 exempts from the
definition any “semiautomatic replacement trigger
that improves the performance and functionality over
the stock trigger.” Id. § 4-301(M)(3).
SB-707 contains an exception clause which purports
to permit individuals to continue to possess the
otherwise prohibited devices, provided that the indi-

4a
vidual “(1) possessed the rapid fire trigger activator
before October 1, 2018; (2) applied to the federal
Bureau of Alcohol, Tobacco, Firearms and Explosives
[“ATF”] before October 1, 2018, for authorization to
possess a rapid fire trigger activator; (3) received
authorization to possess a rapid fire trigger activator
from the [ATF] before October 1, 2019; and (4) is in
compliance with all federal requirements for possession of a rapid fire trigger activator.” SB-707, sec. 1,
§ 4-305.1(b). However, on the day SB-707 went into
effect, October 1, 2018, the ATF released a “Special
Advisory” on its website indicating, “ATF is without
legal authority to accept and process [the exception]
application.” J.A. 13.1 Consequently, the ATF asked
Maryland residents to not file any such applications
and advised that any it received would be “returned to
the applicant without action.” Id.
On June 11, 2018, MSI and four individual plaintiffs
(collectively, “Appellants”) filed the instant putative
class action complaint in the District of Maryland
(the “Complaint”). The Complaint alleged five counts,
which the district court characterized as follows:

 In Counts I and II, [Appellants] argue that
[SB-707] is a per se taking without just
compensation under the United States
Constitution, as well as the Maryland
Constitution, to the extent its Takings
Clause follows federal law.

 In Counts II and V, [Appellants] put
forward a separate per se takings theory
under the State Constitution—that [SB707] retrospectively abrogates vested prop1

Citations to the “J.A.” refer to the Joint Appendix filed by the
parties in this appeal.

5a
erty rights in violation of Article 24, which
also constitutes a taking under Maryland
law.

 In Count IV, [Appellants] argue that [SB707] is unconstitutionally vague, because
its terms can be read to encompass a
number of devices that have only “minimal” impact on a firearm’s rate of fire and
are otherwise functionally and operationally dissimilar to bump stocks and other
devices named in the Act.

 In Count III, [Appellants] argue that
ATF’s refusal to process applications and
grant authorizations for continued lawful
possession makes it “legally impossible to
comply” with [SB-707]’s exception clause,
thus imposing a “legally impossible condition precedent” that violates due process
and cannot be severed from the rest of
[SB-707].
J.A. 232–33.
Appellee moved to dismiss the complaint for failure
to state a claim pursuant to Federal Rule of Civil
Procedure 12(b)(6). After a hearing, the district court
granted Appellee’s 12(b)(6) motion with respect to all
counts except Count IV. Thereafter, the district court
sua sponte dismissed Count IV pursuant to Federal
Rule of Civil Procedure 12(b)(1) after determining that
all plaintiffs lacked standing to pursue the vagueness
claim. Although the district court also determined that
MSI lacked organizational standing to sue on its own
behalf, it nonetheless concluded that MSI did have representative standing to sue on behalf of its members.
Appellants noted a timely appeal to this court.

6a
II.
We review dismissals pursuant to Federal Rule of
Civil Procedure 12(b)(6) de novo. Ott v. Maryland
Department of Public Safety and Correctional Services,
909 F.3d 655, 658 (4th Cir. 2018). To survive a 12(b)(6)
motion, a complaint must contain enough facts “‘to
raise a right to relief above the speculative level’ and
‘state a claim to relief that is plausible on its face.’”
Occupy Columbia v. Haley, 738 F.3d 107, 116 (4th Cir.
2013) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007)). “[A]lthough a court must accept as
true all factual allegations contained in a complaint,
such deference is not accorded legal conclusions stated
therein,” and “[t]he mere recital of elements of a cause
of action, supported only by conclusory statements is
not sufficient.” Walters v. McMahen, 684 F.3d 435, 439
(4th Cir. 2012).
A dismissal pursuant to Federal Rule of Civil Procedure 12(b)(1) is also reviewed de novo. See Demetres
v. East West Const., Inc., 776 F.3d 271, 272 (4th Cir.
2015). When reviewing a complaint dismissed for failure to allege facts supporting subject matter jurisdiction, we afford the plaintiff “the same procedural
protection as she would receive under a Rule 12(b)(6)
consideration, wherein the facts alleged in the complaint are taken as true, and the defendant’s challenge
must be denied if the complaint alleges sufficient
facts to invoke subject matter jurisdiction.” Beck v.
McDonald, 848 F.3d 262, 270 (4th Cir. 2017) (internal
quotation marks and citations omitted).

7a
III.
A.
MSI’s Organizational Standing
Appellants’ first claim of error is that the district
court wrongly determined MSI lacked organizational
standing to sue on its own behalf.
An organization can sue on its own behalf rather
than as a representative of its members when it
independently satisfies the elements of Article III
standing: (1) “the plaintiff must have suffered an
injury in fact—an invasion of a legally protected
interest which is (a) concrete and particularized, and
(b) actual or imminent, not conjectural or hypothetical”; (2) “there must be a causal connection between
the injury and the conduct complained of”; and (3) “it
must be likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–61
(1992) (internal quotation marks and citations omitted). “[A] mere interest in a problem, no matter how
longstanding the interest and no matter how qualified
the organization is in evaluating the problem, is not
sufficient [to establish standing].” Sierra Club v.
Morton, 405 U.S. 727, 739 (1972) (internal quotation
marks omitted).
The district court determined MSI failed to meet the
first prong of Article III standing – injury in fact. In
the Complaint, MSI alleged “SB 707 requirements
directly harm MSI as an organization by undermining
its message and acting as an obstacle to the organization’s objectives and purposes.” J.A. 11–12. In support,
MSI alleged it

8a
seeks to educate the community about the
right of self-protection, the safe handling of
firearms, and the responsibility that goes
with carrying a firearm in public. The purposes of MSI include promoting the exercise
of the right to keep and bear arms; and
education, research, and legal action focusing
on the Constitutional right to privately own,
possess and carry firearms and firearms
accessories.
Id.
MSI argues the district court erred because the
Supreme Court has found standing where a defendant’s actions impede an organization’s efforts to carry
out its mission. See Havens Realty Corp. v. Coleman,
455 U.S. 363, 378 (1982)). However, MSI’s alleged
harms fall well short of the harms alleged in Havens.
There, the plaintiff was a non-profit organization
offering counseling and referrals to clients in search of
equal opportunity housing. See Havens, 455 U.S. at
368. When the plaintiff organization in Havens was
faced with complaints of housing discrimination in
its service area, it investigated and referred those
complaints to the relevant authorities. See id. The
plaintiff organization and its members sued Havens
Realty Corporation (“Havens”) for violating the Fair
Housing Act of 1968. See id. at 366.
In alleging organizational standing, the plaintiff
organization argued Havens’ practices had frustrated
its counseling and referral services, causing a drain
on resources. See id. at 379. Specifically, the plaintiff
organization alleged it had expended resources to
identify and counteract Havens’ discriminatory practices. See id. The Supreme Court found standing. It
held that Havens’ practices had “perceptibly impaired”

9a
the plaintiff’s activities and “[s]uch concrete and
demonstrable injury to the organization’s activities—
with the consequent drain on the organization’s
resources—constitutes far more than simply a setback
to the organization’s abstract social interests.” Id.
Here, MSI only alleged that SB-707 “undermined”
and “acted as an obstacle to” its purpose and message.
J.A. 11–12. MSI did not allege that it had expended
resources as a result of SB-707, nor did it explain a
way in which SB-707 “perceptibly impaired” its activities. Havens, 455 U.S. at 379. Instead, MSI only
alleged, at most, a “setback to its social interests.” Id.
And, as this court has explained,
to determine that an organization that decides
to spend its money on educating members,
responding to member inquiries, or undertaking litigation in response to legislation suffers
a cognizable injury would be to imply standing for organizations with merely “abstract
concern[s] with a subject that could be
affected by an adjudication.”
Lane v. Holder, 703 F.3d 668, 675 (4th Cir. 2012)
(quoting Simon v. E. Ky. Welfare Rights Org., 426 U.S.
26, 40 (1976)). MSI’s alleged injury is no more than a
mere disagreement with the policy decisions of the
Maryland legislature, which is insufficient to meet the
constitutional threshold for an injury in fact.
Accordingly, we agree with the district court that
MSI lacks organizational standing.

10a
B.
Standing as to Vagueness Challenge
Next, we address Appellants’ argument that the
district court improperly dismissed their preenforcement vagueness challenge for lack of standing.2
Appellants alleged in the Complaint that SB-707
is unconstitutionally vague in defining a rapid fire
trigger activator as “any device . . . constructed so that,
when installed in or attached to a firearm[,] the rate
at which the trigger is activated increases; or the
rate of fire increases.” SB-707, sec. 2, § 4-301(M)(1)
(emphasis supplied). Though SB-707 includes a list of
enumerated devices that are encompassed by this
definition, Appellants argue it can also include any
number of other firearm accessories “that modify a
firearm’s rate of fire to mimic that of an automatic
firearm, as well as any device that increases the
rate of fire by any marginal amount, no matter how
minimally.” Appellants’ Br. 25 (emphasis in original).
According to Appellants, the term “rate of fire” is
“unintelligible” when applied to semi-automatic and
single-action firearms because such firearms have
no “mechanically determinable” speed for “how fast
mechanically the firearm can fire while cycling rounds
through the chamber while the trigger is held down.”
See id. at 28–29. Instead, Appellants allege the rate of
fire for a semi-automatic firearm is “as fast as the
trigger can be pulled for each shot.” Id. Appellants
2

Appellants first argue the district court improperly considered standing without providing notice to the parties. However,
because a “federal court has an independent obligation to assess
its subject-matter jurisdiction,” we find no error in the district
court’s decision to consider standing. Constantine v. Rectors &
Visitors of George Mason Univ., 441 F..3d 474, 480 (4th Cir. 2005).

11a
claim this speed can vary from person to person.
Indeed, Appellants argue SB-707 is so vague that it
could include devices that help the shooter be prepared
to aim and fire more quickly. See id. at 25–27. They
claim devices such as a bipod for stabilizing the
firearms, slings used to stabilize weapons on shooters’
arms, barrel weights used to reduce recoil, and muzzle
devices designed to direct gasses away from the
shooter’s line of sight are all examples of devices “that
marginally increase the ‘rate of fire’ [of the shooter] by
some small amount.” Id. at 26 (emphasis in original).
Rather than determining whether Appellants stated
a claim that SB-707 is unconstitutionally vague,
however, the district court determined Appellants
lacked standing to pursue such a pre-enforcement
challenge. As discussed above, to possess standing,
Appellants needed to allege a sufficient injury in fact.
Lujan, 504 U.S. at 560–61. A plaintiff alleges sufficient injury in a pre-enforcement suit if she alleges [1]
“‘intention to engage in a course of conduct arguably
affected with a constitutional interest, but proscribed
by a statute, and [2] there exists a credible threat of
prosecution thereunder.’” Kenny v. Wilson, 885 F.3d
280, 288 (4th Cir. 2018) (quoting Babbitt v. Farm
Workers Nat’l Union, 442 U.S. 289, 298 (1979)). A
credible threat of prosecution exists only if it “is
not imaginary or wholly speculative,” chimerical, or
wholly conjectural. Id. (internal quotation marks and
citations omitted). The district court determined,
“Plaintiffs do not allege any facts suggesting a ‘credible threat’ that [SB-707] will be enforced in accordance
with Plaintiffs’ broad reading. . . . Plaintiffs simply
have not alleged any facts suggesting that the threat
of such enforcement rises above pure speculation and
conjecture.” J.A. 251–52.

12a
Though the district court based its decision on
Appellants’ lack of a credible threat of prosecution,
Kenny’s second prong, we hold that Appellants fail on
the first prong of Kenny – they have not stated an
intent to engage in conduct arguably proscribed by a
statute. Kenny, 885 F.3d at 288; see United States v.
McHan, 386 F.3d 620, 623 (4th Cir. 2004) (recognizing
“we are, of course, entitled to affirm on any ground
appearing in the record, including theories not relied
upon or rejected by the district court” (alterations and
internal quotation marks omitted)). Though Appellants claim they own “potentially banned devices” such
as bipods, slings, and barrel weights, we are unpersuaded that those devices are even arguably proscribed by SB-707. SB-707 prohibits devices “constructed so that, when [they are] installed in or
attached to a firearm[,] (i) the rate at which the trigger
is activated increases; or (ii) the rate of fire increases.”
SB-707, sec. 1, § 4- 301(M)(1). The enumerated devices
encompassed by the term “rapid fire trigger activator”
all actually increase the rate at which the firearm is
capable of firing. Indeed, such devices essentially turn
firearms into automatic weapons. By contrast, the
devices Appellants suggest may minimally increase
the rate of fire do not increase the rate at which the
firearm is capable of firing. Instead, those devices help
prepare the shooter to fire again more quickly than she
may have been able otherwise. But these devices
Appellants point to are not similar in design or
function to the devices banned by SB-707. As a result,
they do not even come close to accomplishing what SB707 set out to ban – they do not activate a trigger for
rapid fire.
Thus, we find no basis to hold that Appellants have
alleged an intent to engage in a course of conduct
arguably proscribed by SB-707. For the same reasons,

13a
we hold that Appellants have not shown a credible
threat that SB-707 would be enforced in this manner.
Accordingly, we affirm the district court on this issue.
C.
Failure to State a Takings Clause Claim
Appellants also argue the district court wrongly
determined they failed to state a claim that SB-707
violates the Takings Clauses of the United States
Constitution and the Maryland Constitution, Art. III,
section 40, to the extent it is analogous to the federal
Constitution.
The Fifth Amendment to the Constitution, incorporated to the states via the Fourteenth Amendment,
provides “private property [shall not] be taken for
public use, without just compensation.” U.S. Const.
amend. V. A “taking” can be of personal or real property, and it can be effected through either a physical
appropriation of the property by the Government or
through a regulation that goes “too far” in depriving
the owner of her property rights. See e.g. Lucas v.
South Carolina Coastal Council, 505 U.S. 1003, 1014–
15 (1992). Each of these scenarios has been treated
differently in Takings jurisprudence. Relevant here,
Appellants claim SB-707 effects a per se taking of
their personal property.3 4 Specifically, because the
3

Appellants only argue SB-707 amounts to a per se taking.
They make no argument that, even if SB-707 is not a per se
taking, it would be a taking when analyzed pursuant to the ad
hoc balancing test set forth in Penn Central Transportation Co. v.
New York City, 438 U.S, 104, 124 (1978). Therefore, we do not
analyze SB-707 under that test.
4

We pause here to note a fundamental distinction between the
majority and the dissenting opinions. The dissent is of the view
that the two types of takings are “classic” or per se takings, and

14a
provision permitting registration with the ATF is
ineffectual, Appellants argue SB-707’s regulatory prohibition on one’s ability to “transport . . . into the
State” or “manufacture, possess, sell, offer to sell,
transfer, purchase, or receive a rapid fire trigger

“regulatory” takings. Thus, according to the dissent, for the
taking here to be per se, it must fall under the framework of a
“classic” taking, which occurs when the Government itself
directly physically appropriates property “for its own use.” Horne
v. Dept. of Agriculture, 135 S. Ct. 2419, 2425 (2015). The dissent
is incorrect in this regard. Though a “per se” taking originally only
applied to physical takings, the Supreme Court has held that
regulatory takings, too, can be per se. See Loretto v. Teleprompter
Manhattan CATV Corp., 458 U.S. 419 (1982); see also Lucas v.
South Carolina Coastal Council, 505 U.S. 1003 (1992). For this
reason, we refer herein to “classic” takings as physical takings,
which are distinct from regulatory takings.
Per se regulatory takings have been recognized in only two
limited instances – Loretto, where the regulation required
property owners to permit third parties to physically occupy their
property, 458 U.S. 419, and Lucas, where the regulation rendered
real property economically worthless, 505 U.S. 1003. As we
explain below, the Supreme Court has left intact Lucas’ distinction between real and personal property with regard to regulatory
takings. See Horne, 135 S. Ct. at 2427. Thus, the per se regulatory
taking in Lucas applies only to real property. And, as we further
explain, the per se regulatory taking in Loretto is readily distinguishable because SB-707 does not require or permit third parties
to take physical possession of the personal property.
Without recognizing the distinction between physical and
regulatory takings, the dissent classifies the alleged taking here
as a “classic” or physical taking. This, too, is incorrect, as SB-707
is (1) a regulation, and (2) does not require owners of the banned
devices to physically turn them over to the Government. Therefore, SB-707 is not a classic, per se physical taking. And, because
Loretto and Lucas are distinguishable, there is no framework
under which we could conclude that it is a per se regulatory
taking.

15a
activator,” SB-707, sec. 1, § 4-305.1(a), is tantamount
to a direct appropriation of the personal property.
To date, the Supreme Court has recognized only two
types of per se regulatory takings. First, in Loretto v.
Teleprompter Manhattan CATV Corp., the Supreme
Court considered whether a New York law requiring
landlords to permit cable television companies to
install equipment on their properties violated the Takings clause. 458 U.S. 419 (1982). Though the cable
boxes and lines landlords were required to allow to be
installed did not take much space on the landlords’
properties, the Court characterized them as a “minor
but permanent physical occupation” of the property.
Id. at 421. The Court concluded “a permanent physical
occupation authorized by government is a taking
without regard to the public interests that it may
serve.” Id. at 426. Thus, when a regulation authorizes
a third party to physically take property, that regulation effects a per se regulatory taking.
Then, in Lucas v. South Carolina Coastal Council,
the Court found a per se or total regulatory taking
“where regulation denies all economically beneficial or
productive use of land.” 505 U.S. at 1015 (citing Agins
v. City of Tiburon, 447 U.S. 255, 260 (1980)) (emphasis
supplied). In explaining its reasoning for adopting this
per se rule, the Court provided some insight into the
distinctions between takings of real property and
personal property:
It seems to us that the property owner necessarily expects the uses of his property to be
restricted, from time to time, by various
measures newly enacted by the State in legitimate exercise of its police powers; as long
recognized, some values are enjoyed under an
implied limitation and must yield to the

16a
police power. And in the case of personal
property, by reason of the State’s traditionally
high degree of control over commercial dealings, he ought to be aware of the possibility
that new regulation might even render his
property economically worthless (at least if
the property’s only economically productive
use is sale or manufacture for sale). In the
case of land, however, we think the notion . . .
that title is somehow held subject to the
“implied limitation” that the State may subsequently eliminate all economically valuable
use is inconsistent with the historical compact recorded in the Takings Clause that has
become part of our constitutional culture.
Id. at 1027–28 (emphasis supplied) (internal quotation
marks, citations, and alterations omitted).
Against this backdrop of cases, we held in Holliday
Amusement Co. of Charleston, Inc. v. South Carolina
that a South Carolina ban on the possession or sale of
certain gambling machines was not a taking. 493 F.3d
404, 410–11 (4th Cir. 2007). There, the appellant previously had lawfully acquired video poker machines
which it distributed for profit. See id. at 406. When
South Carolina passed a law making possession of the
machines unlawful and subjecting them to forfeiture,
the appellant filed suit claiming a regulatory taking
and requesting just compensation. See id. We concluded, “We believe that Supreme Court case law
makes clear that gambling regulations like Act 125 per
se do not constitute takings.” Id. at 411 n.2. We came
to this conclusion relying on Andrus v. Allard, 444
U.S. 51, 65 (1979), in which the Supreme Court held
“government regulation—by definition—involves the
adjustment of rights for the public good,” and Lucas,

17a
where the Court noted “in the case of personal
property, by reason of the State’s traditionally high
degree of control over commercial dealings, [the
owner] ought to be aware that new regulation might
even render his property economically worthless,” 505
U.S. at 1027–28. Because gambling is “an area in
which the state traditionally enjoys wide latitude to
regulate activity minutely or to outlaw it completely,”
Holliday, 493 F.3d at 410, we held the appellant “was
well aware that the South Carolina legislature might
not continue to look favorably upon it. The fact that
this possibility came to pass does not yield him a
constitutional claim,” id. at 411.
Though Appellee argues Holliday squarely forecloses Appellants’ Takings claim, Appellants argue
Holliday did not survive the Supreme Court’s 2015
decision in Horne v. Dept. of Agriculture, 135 S. Ct.
2419 (2015). According to Appellants, Horne makes
clear that both types of per se regulatory takings
apply equally to real property and personal property.
Appellants’ contention plainly fails.
In Horne, the Supreme Court did hold that the
first type of per se regulatory takings identified in
Loretto – direct appropriation – applies to personal
property. See Horne v. Dept. of Agriculture, 135 S. Ct.
2419, 2425–27 (2015) (explaining the “Government
has a categorical duty to pay just compensation when
it takes your car, just as when it takes your home,”
because “[n]othing in this history suggests that
personal property was any less protected against
physical appropriation than real property”) (emphasis
supplied)). Lucas, which established the second type,
however, was about purely regulatory takings, not
direct appropriations authorized by regulation. Id. at
2427. Thus, Horne distinguished Lucas: “[w]hatever

18a
Lucas had to say about reasonable expectations with
regard to regulations, people still do not expect their
property, real or personal, to be actually occupied or
taken away.” Id. (emphasis supplied).
Appellants overlook this distinction and how it
applies in this case. SB-707 does not require owners of
rapid fire trigger activators to turn them over to the
Government or to a third party. Regardless of whether
we would today decide Holliday – which required
forfeiture of the gambling machines – the same way,
the Horne Court expressly preserved the reasoning
behind Holliday’s conclusion as it appears in Lucas
and Andrus. Though SB-707 may make the personal
property economically worthless, owners are “aware of
th[at] possibility” in areas where the State has a
“traditionally high degree of control.” Lucas, 505 U.S.
at 1027–28. We can think of few types of personal
property that are more heavily regulated than the
types of devices that are prohibited by SB-707. And,
“government regulation—by definition—involves the
adjustment of rights for the public good.” Andrus, 444
U.S. at 65.
Thus, we agree with the district court that Appellants do not state a claim that SB-707 violates the
Takings Clause.
D.
Maryland Declaration of Rights
Finally, we address Appellants’ claim that the district court improperly determined SB-707 does not
violate Article 24 of the Maryland Declaration of
Rights.
“Together, Maryland’s Declaration of Rights and
Constitution prohibit the retrospective reach of statutes

19a
that would have the effect of abrogating vested rights.”
Muskin v. State Dept. of Assessments and Taxation,
30 A.3d 962, 968 (Md. 2011). “If a retrospectivelyapplied statute is found to abrogate vested rights
or takes property without just compensation, it is
irrelevant whether the reason for enacting the statute,
its goals, or its regulatory scheme is rational.” Id. at
969 (internal quotation marks omitted).
The first step in analyzing whether SB-707 violates
Maryland’s Constitutional provisions is determining
whether the law operates retrospectively. Importantly,
though Appellants have challenged the district court’s
holding that SB-707 does not abrogate vested rights,
they have not challenged the district court’s ruling
that the statute is not retrospective, thereby waiving
the issue. See Roe v. United States DOD, 947 F.3d 207,
219 (4th Cir. 2020) (citation omitted) (“Issues that [the
appellant] failed to raise in his opening brief are
waived.”). Because a statute must be retrospective to
violate the Maryland Declaration of Rights, we affirm
the district court’s decision on this issue.
In any event, though Maryland has not identified a
“bright line rule” for determining what constitutes
retrospective application, the Maryland Court of
Appeals has held a retrospective application “would
impair rights a party possessed when he acted, increase a party’s liability for past conduct, or impose
new duties with respect to transactions already completed.” John Deere Const. & Forestry Co. v. Reliable
Tractor, Inc., 957 A.2d 595, 599 (Md. 2008) (internal
quotation marks omitted). And the Maryland Court of
Appeals “adopted the [United States] Supreme Court’s
Landgraf factors analysis for retrospectivity that
evaluates ‘fair notice, reasonable reliance, and settled
expectations’ to determine ‘the nature and extent of

20a
the change in law and the degree of connection
between the operation of the new rule and a relevant
past event.’” Muskin, 30 A.3d at 970 (quoting Landgraf
v. USI Film Prods., 511 U.S. 244, 270 (1994)). The
district court held that SB-707 does not operate
retrospectively, and we agree. SB-707 does not alter
the rights Appellants possessed when they purchased
their rapid fire trigger activators, nor does it impose
new liability back to the date of purchase. Instead,
Appellants had fair notice of the change in law – SB707 was passed six months before it first went into
effect.
IV.
For the foregoing reasons, the decision of the district
court is
AFFIRMED.

21a
RICHARDSON, Circuit Judge, concurring in the judgment in part and dissenting in part:
In 2018, Maryland banned “rapid fire trigger
activators”—bump stocks, burst triggers, and similar
devices that permit a gun to fire faster. Unlike most
bans, the Maryland law fails to grandfather-in existing property owners. For them, the real-world consequences of Maryland’s ban are manifest: owners must
destroy their devices, abandon them, surrender them,
or send them out of state. The principal question in
this appeal is whether Maryland’s ban runs afoul of
the Fifth Amendment because it takes “private property for public use, without just compensation.” U.S.
CONST. amend. V.
In my view, it does. A “classic” taking occurs not
only when “government directly appropriates private
property,” but also when it “ousts the owner” of possession—as Maryland does here. Lingle v. Chevron U.S.A.
Inc., 544 U.S. 528, 539 (2005). The traditional “[p]roperty rights in a physical thing” are “to possess, use and
dispose of it.” Loretto v. Teleprompter Manhattan CATV
Corp., 458 U.S. 417, 435 (1982) (quoting United States
v. General Motors Corp., 323 U.S. 373, 378 (1945)).
And Maryland’s ban expressly eliminates each of these
rights—it “does not simply take a single ‘strand’ from
the ‘bundle,’” rather “it chops through” and “tak[es] a
slice of every strand.” Id. When this type of taking
occurs, an ousted owner is per se entitled to just compensation under the Fifth Amendment—period. Horne
v. Department of Agriculture, 135 S. Ct. 2419, 2426
(2015). So I would vacate the district court’s dismissal
of Plaintiffs’ takings claims and remand the case for
further proceedings.

22a
I. Facts
A. The Maryland ban
On October 1, 2018, private ownership of “rapid
fire trigger activators” in Maryland became illegal. A
“rapid fire trigger activator” is “any device . . . constructed so that, when installed in or attached to a
firearm, the rate at which the trigger is activated
increases; or the rate of fire increases.” Md. Code § 4301(M)(1). The term “rapid fire trigger activator”
includes “a bump stock, trigger crank, hellfire trigger,
binary trigger system, burst trigger system, or a copy
or a similar device, regardless of the producer or
manufacturer.” § 4-301(M)(2).1 On pain of fine or up to
three years in prison, private citizens may not
1

Maryland law defines each of these enumerated mechanisms:


A “bump stock” “increases the rate of fire of the
firearm by using energy from the recoil of the
firearm to generate a reciprocating action that
facilitates repeated activation of the trigger.”
§ 4-301(F).



A “trigger crank” “repeatedly activates the trigger
of the firearm through the use of a crank, a lever,
or any other part that is turned in a circular
motion.” § 4-301(N).



A “hellfire trigger” “disengages the trigger return
spring when the trigger is pulled.” § 4-301(K).



A “binary trigger system” “fires [a gun] both when
the trigger is pulled and on release of the trigger.”
§ 4-301(E).



A “burst trigger system” “allows the firearm to discharge two or more shots with a single pull of the
trigger by altering the trigger reset.” § 4-301(G).
Semiautomatic “replacement triggers” that merely
“improve[] performance and functionality over
the stock trigger” do not fall within the ban.
§ 4-301(M)(3).

23a
“manufacture, possess, sell, offer to sell, transfer,
purchase, or receive a rapid fire trigger activator.” § 4305.1(a). Nor may they “transport” these devices into
the state. § 4-306(a).
One provision of Maryland law purports to permit
owners to hold on to their banned devices so long as
they:
(1) possessed the rapid fire trigger activator
before October 1, 2018; (2) applied to the
[federal Bureau of Alcohol, Tobacco, Firearms
and Explosives (“ATF”)] before October 1,
2018, for authorization to possess a rapid fire
trigger activator; (3) received authorization to
possess a rapid fire trigger activator from the
[ATF] before October 1, 2019; and (4) [are] in
compliance with all federal requirements for
possession of a rapid fire trigger activator.
§ 4-305.1(b) (emphasis added). But—whether by design
or mistake—this grandfather clause is illusory. The
ATF, a federal agency, lacks the authority to assess
applications for the State of Maryland. See Bureau of
Alcohol, Tobacco, Firearms & Explosives Special Advisory, Maryland Law Restricting “Rapid Fire Trigger
Activators” (Apr. 24, 2018). So the agency rebuffed all
applications and returned any requests to the applicant without action. See id.
B. The proceedings below
Maryland Shall Issue (“MSI”) and four of its members filed this putative class action in the District of
Maryland. MSI, a Maryland nonprofit corporation,
seeks to “preserv[e] and advance[] gun owners’ rights
in Maryland.” J.A. 11. According to MSI, its members
possess “rapid fire trigger activators which are effectively and totally banned” by Maryland law. J.A. 12.

24a
The four named MSI members similarly claim to
“own[] one or more of the ‘rapid fire trigger activators’
newly banned by [Maryland].” Id. And they assert the
ban “dispossesses [them] of their property” without
compensation. J.A. 14.
Plaintiffs assert two related takings claims. First,
Plaintiffs contend the Maryland ban violates the
Takings Clause of the U.S. Constitution. Second, they
argue the ban is an impermissible taking under the
Maryland Declaration of Rights. The district court
disagreed and granted Maryland’s motion to dismiss.
See FED. R. CIV. P. 12(b)(6).2 Plaintiffs timely appealed.
With all claims dismissed below, this appeal properly
lays before us. See 28 U.S.C. § 1291.
II. Discussion
We review the district court’s dismissals de novo. At
the 12(b)(6) stage, we accept all well-pleaded facts as
true and draw all reasonable inferences in favor of
Plaintiffs. Ray v. Roane, 948 F.3d 222, 226 (4th Cir.
2020). When viewed in this light, Plaintiffs’ claims
survive if they provide a plausible legal basis for relief.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
A. Standing to assert takings claims
As a judge on a court of limited jurisdiction, I first
must confirm our power to hear this appeal. See
General Technology Applications, Inc. v. Exro Ltda,
388 F.3d 114, 118 (4th Cir. 2004). Article III limits the
federal “judicial Power” to “cases and controversies.”
U.S. CONST. art. III, § 2. Beyond this limit, we lack
2

Plaintiffs also claimed the ban is unconstitutionally vague.
The district court dismissed this claim for lack of subject-matter
jurisdiction. And I agree that Plaintiffs lack standing to bring this
claim.

25a
subject-matter jurisdiction. “One element of the caseor-controversy requirement” that all federal-court
plaintiffs must establish is standing. Raines v. Byrd,
521 U.S. 811, 818 (1997). And standing’s “irreducible
constitutional minimum” has three components:
“Plaintiffs must show that they have (1) suffered an
injury in fact, that is (2) fairly traceable to the
challenged conduct of the defendant, and (3) likely to
be redressed by a favorable judicial decision.” Spokeo,
Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016). “[A]t least
one plaintiff must have standing to sue” on each claim
asserted. Department of Commerce v. New York, 139
S. Ct. 2551, 2565 (2019).
I agree with the majority’s (implicit) determination
that individual Plaintiffs have standing to bring their
takings claims. In Andrus v. Allard, the Supreme
Court considered whether owners of protected bird
products had standing to claim that a federal ban on
selling their products amounted to a taking without
compensation. 444 U.S. 51, 54–55 (1979). “Because the
regulations [the owners] challenge[d] restrict[ed] their
ability to dispose of their property,” the Court reasoned, they had “a personal, concrete, live interest in
the controversy.” Id. at 64 n.21. Here, Maryland law
not only eliminates Plaintiffs’ property right to “sell
[or] transfer” their devices, but also to “possess” or
“transport” them. §§ 4-305.1(a), 4-306(a). So, as in
Andrus, the individual Plaintiffs suffer a concrete
injury from Maryland’s ban, and a favorable judicial
decision promises relief.3
3

Maryland urges this appeal is moot because federal regulations now ban bump stocks. See 27 C.F.R. § 478.11; Guedes v.
BATF, 920 F.3d 1 (D.C. Cir. 2019). Thus, the state claims, the
outcome of this case will have no practical effect on Plaintiffs. Not
so.

26a
Because individual Plaintiffs have standing to
assert their takings claims, I see no need to address
MSI’s associational standing on this issue. See
Department of Commerce, 139 S. Ct. at 2565. Yet the
majority does, and I find their analysis peculiar.
Rather than identifying a plaintiff with standing to
assert the takings claims, the majority instead chooses
to discuss and reject one associational standing theory
that fails. I fail to see the rhyme or reason for this
approach here.
B. Takings claims
Having confirmed our court’s power to entertain
Plaintiffs’ takings claims, I now turn to the merits.
1. The Supreme Court’s “classic”
“regulatory” takings jurisprudence

and

The Fifth Amendment’s Takings Clause provides
that private property shall not “be taken for public use,
without just compensation.” U.S. CONST. amend V. For
Simply put, the federal regulations and Maryland ban are
coextensive in neither time nor scope. First, this argument fails
to consider the time between the Maryland ban and the federal
ban. See First English Evangelical Lutheran Church of Glendale
v. Los Angeles County, 482 U.S. 304, 320 (1987) (The government
has a “duty to provide compensation for the period during which
the taking was effective.”). Second, even assuming later changes
to federal law could moot a taking by operation of state law,
Maryland’s ban applies more broadly than its federal counterpart.
Compare 27 C.F.R. § 478.11 (bump stocks) with § 4-301(M)(2) (trigger cranks, hellfire triggers, binary trigger systems, and more);
accord Appellee Br. 17 n.4. Indeed, the ATF specifically excluded
binary triggers from its regulations, see 83 Fed. Reg. 66534, but
Maryland bans them. And Plaintiffs claim more than just their
bump stocks were taken. See J.A. 12. So Plaintiffs retain a legally
cognizable interest in the outcome, and their case remains live.
See Powell v. McCormack, 395 U.S. 486, 496 (1969).

27a
the last century-and-a-quarter, this constitutional
prohibition has bound the states as well as the federal
government. See Chicago, B. & Q.R. Co. v. Chicago,
166 U.S. 226 (1897). As originally understood, “‘the
Takings Clause reached only a direct appropriation of
property, or the functional equivalent of a practical
ouster of the owner’s possession.’” Murr v. Wisconsin,
137 S. Ct. 1933, 1942 (2017) (quoting Lucas v. South
Carolina Coastal Council, 505 U.S. 1003, 1014 (1992)).
Grounded in our history and constitutional tradition,
the Supreme Court has called this historic form of
government interference a “classic taking.” Lingle v.
Chevron U.S.A. Inc., 544 U.S. 528, 538 (2005); see
Horne v. Department of Agriculture, 135 S. Ct. 2419,
2425 (2015) (tracing classic takings back to the
“principles of the Magna Carta”).
Over time, the Supreme Court expanded the scope
of the Takings Clause beyond the classic paradigm. In
Pennsylvania Coal Co. v. Mahon, the Supreme Court
endorsed an ad hoc factual inquiry to determine when
“regulation goes too far” so as to be “recognized as a
taking.” 260 U.S. 393, 415 (1922). On one hand, the
Court explained, “[g]overnment hardly could go on if
to some extent values incident to property could not be
diminished without paying for every such change in
the law.” Id. at 413. But, at the same time, “a strong
public desire to improve the public interest is not
enough to warrant achieving the desire by a shorter
cut than the constitutional way of paying for the
change.” Id. at 416. The proper balance between these
two apparently contradictory principles, Justice Holmes
said, “is a question of degree—and therefore cannot be
disposed of by general propositions.” Id.

28a
Mahon laid the cornerstone for the “regulatory takings” doctrine that jurists apply today.4 And despite
Justice Holmes’s suspicion of “general propositions” in
the regulatory-takings context, the Court has since
identified “two guidelines” that channel this inquiry.
Murr, 137 S. Ct. at 1937. First, a regulation that
“denies all economically beneficial or productive use of
land” is considered a “total regulatory taking” that
generally requires compensation. Lucas, 505 U.S. at
1015. Second, Mahon’s “ad hoc, factual inquiry” has
been distilled to three factors for consideration: the
economic impact of a regulation, the regulation’s
interference with investment-backed expectations,
and the character of the government action. See Penn
Central Transportation Co. v. City of New York, 438
U.S. 104, 124 (1978). Relatedly, the Court has identified two propositions that cut against finding a regulatory taking. A regulatory-takings claim generally fails
if “the challenged limitations ‘inhere . . . in the
restrictions that background principles of the State’s
law of property and nuisance already placed on land
ownership.’” Murr, 137 S. Ct. at 1943 (quoting Lucas,
505 U.S. at 1029). And, due to the state’s “high degree
of control over commercial dealings,” the Court has
4

Unfortunately, this label creates a slight linguistic difficulty:
“regulatory takings” need not arise from federal-registrar-type
“regulations.” As described below, the Supreme Court has used
this label to refer to the nature of the government action, not the
form of a legal edict. Accordingly, regulations have given rise to
“classic takings.” See Horne, 135 S. Ct. at 2428 (Department of
Agriculture regulation was a classic taking). Similarly, laws or
other forms of government action have resulted in “regulatory
takings.” See Eastern Enterprises v. Apfel, 524 U.S. 498, 529–37
(1999) (plurality) (federal statute gave rise to regulatory taking).
Thus, the term “regulatory takings” is best understood as referring to a conceptual class of takings, rather than a taking caused
by a “regulation.” Contra Majority Op. 13–14 n.4.

29a
suggested that personal property may be less protected than real property in the regulatory-takings
context. See Lucas, 505 U.S. at 1027–28; Holliday
Amusement Co. of Charleston, Inc. v. South Carolina,
493 F.3d 404, 410–11 (4th Cir. 2007).
Yet, the “classic taking” retains a distinct identity in
our Fifth Amendment jurisprudence. Indeed, the
Supreme Court has repeatedly warned against confusing its inquiry for classic takings with the analysis
for regulatory takings. Horne, 135 S. Ct. at 2428–29;
Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg’l
Planning Agency, 535 U.S. 302, 323 (2002). Whatever
the role of categorical rules in the “more recent”
regulatory-takings inquiry, the classic taking, “old
as the Republic[,] . . . involves the straightforward
application of per se rules.” Tahoe-Sierra Pres.
Council, 535 U.S. at 322. A classic taking always
requires compensation—no matter how trivial the
economic consequences. Horne, 135 S. Ct. at 2426;
Loretto, 548 U.S. at 434–35. Even if we recognize
different sets of expectations for personal and real
property in the regulatory-takings context, see Lucas,
505 U.S. at 1027–28, they are treated the same in the
classic framework, Horne, 135 S. Ct. at 2426–28. And
although the state’s police powers or background
principles of property law may defeat a regulatorytakings claim, see Lucas, 505 U.S. at 1029, they will
not affect a classic-takings claim, Horne, 135 S. Ct. at
2425, 2428; Loretto, 548 U.S. at 434–35.5
5

This is not to say that “per se” rules either do not or cannot
apply in the regulatory context. Contra Majority Op. 13 n.4.
Indeed, the Supreme Court has at various times referred to Lucas
as establishing either a “per se” or a “categorical” regulatory takings rule. Compare Tahoe-Sierra Pres. Council, 535 U.S. 302, 325
(describing Lucas as “a regulatory takings case that, neverthe-

30a
You might wonder how a singular constitutional
clause can be imbibed with such disparate meanings.
I might too. One meaning is rooted in the original
understanding of a taking, see Horne, 135 S. Ct. at
2426–27; compare 1 William Blackstone Commentaries 134–36 (1st ed. 1765), the other is a newer
doctrine shaped by the forward-march of government
regulation during the twentieth century, see Murr, 137
S. Ct. at 1942. But students of the law are no stranger
to parallel legal theories that spring from the same
constitutional source. See, e.g., Kyllo v. United States,
533 U.S. 27, 34 (2001) (noting the Fourth Amendment
shelters privacy interests “that existed when the
Fourth Amendment was adopted” as well as contemporary “reasonable expectations of privacy”). In this
respect, the Takings Clause is simply par for the
course.6

less, applied a categorical rule”), with Lingle, 544 U.S. at 528
(suggesting that Lucas established a “per se” rule). But the Lucas
rule, however it is characterized, has exceptions. See Lucas, 505
U.S. at 1029. Classic takings do not and so always require just
compensation. See Horne, 135 S. Ct. at 2425.
6

Of course, this only highlights certain fundamental questions: How do we justify two parallel doctrines rising from a
single source? Are parallel doctrines tenable? See Craig S. Lerner,
Justice Scalia’s Eighth Amendment Jurisprudence: The Failure
of Sake-of-Argument Originalism, 42 HARV. J.L. & PUB. POL’Y 91
(2019) (discussing the breakdown of the Eighth Amendment
compromise between evolving standards of decency and the
original understanding of cruel and unusual punishment). Why
do we think the judiciary is well-equipped to evaluate the reasonableness of investment or privacy expectations? See The Federalist No. 78, at 468–69 (Hamilton) (C. Rossiter ed., 1961) (discussing the independence of the judiciary from public opinion). And
as our own decisions may in turn influence the public’s expectations, where lies the line between deciding what the law is and
what it should be? See Michael Abramowicz, Constitutional

31a
But by applying distinct legal rules in the classicand regulatory-takings contexts, the Supreme Court
has concentrated considerable pressure on the threshold
question of categorization. In this case, that pressure
comes to a head. Plaintiffs argue Maryland’s ban
amounts to either a per se classic taking (see Loretto/
Horne) or a total regulatory taking (see Lucas).7 If
Maryland’s ban is a taking within the former framework, just compensation is required—no matter the
state’s interest. But if Maryland’s ban is more aptly
characterized as a total regulatory taking, then
background principles of Maryland law likely defeat
Plaintiffs’ takings claim. See Majority Op. 15–17;
Holliday Amusement, 493 F.3d at 410–11. But see
Duncan v. Becerra, 265 F. Supp. 3d 1106, 1136–39
(S.D. Cal. 2017), aff’d, 742 F. App’x 218 (9th Cir. 2018).
This stark doctrinal divide requires confronting the
deceptively difficult question of whether Maryland’s
ban falls within the scope of the classic-takings
doctrine. I conclude it does.
2. The Maryland ban is a “classic taking”
We return to the text of the constitutional prohibition: “nor shall private property be taken for public use
without just compensation.” U.S. CONST. amend. V. As
framed here, this case turns on what it means to “take”
“property” in the classic context.8

Circularity, 49 UCLA L. REV. 1, 60–63 (2001); Lucas, 505 U.S. at
1035–36 (Kennedy, J., concurring) (citing Katz v. United States,
389 U.S. 347 (1967)).
7

Plaintiffs do not make an ad-hoc-regulatory-takings claim
(see Penn Central).
8

The parties do contest the meaning of “public use.” See Kelo
v. City of New London, 545 U.S. 469, 484 (2005) (holding that the

32a
The Supreme Court explains that “property,” within
the text of the Fifth Amendment, “denote[s] the group
of rights inherent in the citizen’s relation to [a]
physical thing,” as opposed to merely the physical
thing itself. United States v. Gen. Motors Corp., 323
U.S. 373, 377 (1945); see also Eaton v. Boston, C. &
M.R.R., 51 N.H. 504, 511 (1872) (“‘[P]roperty,’ although
in common parlance frequently applied to a tract of
land or chattel, in its legal signification ‘means only
the rights of the owner in relation to it.’”) (quoting
Wynehamer v. The People, 13 N.Y. 378, 433 (1856));
1 Blackstone Commentaries 138 (Property “denotes a
right” over a thing). The bedrock rights of property are
“to possess, use and dispose” of an item. Loretto v.
Teleprompter Manhattan CATV Corp, 458 U.S. 419,
435 (1982) (quoting General Motors, 323 U.S. at 378);
compare 1 Blackstone Commentaries 134 (“use, enjoyment, and disposal”). And the government takes
property in the classic sense when it eliminates each
of these property rights. See Loretto, 458 U.S. at 435;
Eaton, 51 N.H. at 511–12.
In Loretto, for instance, the Supreme Court considered whether a government-mandated physical occupation of real property by a third party was a taking.
There, New York law required landlords to permit
cable-television companies to install cable hookups on
their rooftop. Id. at 421. After explaining that property
rights in a physical thing are “the rights ‘to possess,
use and dispose of it,” the Court reasoned that a
permanent physical occupation is a per se taking
because “it effectively destroys each of these rights.”
Id. at 435. First, the owner loses the right to possess
the occupied space himself and has no power to
condemnation of property for private economic development is a
“public use”).

33a
exclude the occupier. Id. Second, the owner is denied
any control over the use of the occupied property. Id.
And last, even though the owner retains the right to
dispose of the occupied space, that right is void of value
since the property is occupied by another. Id. So the
physical occupation is of a special character only
because—to use the Supreme Court’s metaphor—that
occupation “chops through the ‘bundle’” of property
rights, rather than takes “a single ‘strand.’” Id.; see
also YMCA v. United States, 395 U.S. 85, 92 (1969)
(“Ordinarily, of course, governmental occupation of
private property deprives the private owner of his use
of the property, and it is this deprivation for which the
Constitution requires compensation.”) (emphasis
added).
Similarly, in Horne, the Supreme Court considered
whether a Department of Agriculture regulation
requiring raisin handlers to set aside a portion of their
raisins for the government amounted to a classic
taking. 135 S. Ct. at 2424. Although the raisins may
remain on the premises of the handlers, a government
committee dictated whether the set-aside raisins
would be sold in noncompetitive markets or donated to
charitable causes. Id. at 2424, 2428. Net proceeds—if
any—would be distributed to the handler. Id. at 2424.
The court explained that the set-aside requirement “is
a clear physical taking.” Id. at 2428. And it reasoned
that growers subject to the reserve requirement “thus
lose the entire ‘bundle’ of property rights in the appropriated raisins—“the rights to possess, use and
dispose of’ them.” Id. (quoting Loretto, 458 U.S. at
435). Therefore, the Court explained that “[t]he
Government’s ‘actual taking of possession and control’
of the reserve raisins gives rise to a taking.” Id.
(quoting Loretto, 458 U.S. at 435).

34a
In contrast, consider Andrus v. Allard, when the
Supreme Court analyzed whether the federal government took property from commercial dealers when it
prohibited transactions in protected bird feathers and
other items. 444 U.S. at 55. There, the Court acknowledged the “significant restriction [] imposed on one
means of disposing of the artifacts”—a prohibition on
their sale. Id. at 66. But, it reasoned, “[a]t least where
an owner possesses a full ‘bundle’ of property rights,
the destruction of one ‘strand’ of the bundle is not a
taking, because the aggregate must be viewed in its
entirety.” Id. at 66–67 (citations omitted). And “[i]n
this case, it is crucial that appellees retain the rights
to possess and transport their property, and to donate
or devise the protected birds.” Id. at 68. So the Court
applied a regulatory-takings lens and held that the
federal restriction on sales did not amount to a taking.9

9

Similarly, the Supreme Court requires a “total” regulatorytaking analysis when an owner loses a single property right that
zeros out the economic value of his holding while the rest of his
property rights remain intact. In Lucas v. South Carolina Coastal
Council, the Court assessed whether a South Carolina ban on
coastal-zone construction amounted to a taking. 505 U.S. at 1007.
There, the state took Lucas’s right to construct “occupiable improvements,” like single-family homes, on his land. Id. at 1008–09.
Although taking this right “eliminated all economically viable use
of his land,” id. at 1021, Lucas retained the full bundle of
remaining property rights. Lucas continued to own and possess
the land, and he could sell it or build other structures on it. See
id. at 1009 n.2; see also id. at 1044 (Blackmun, J., dissenting)
(“Petitioner can [exclude, alienate,] picnic, swim, camp in a tent,
or live on the property in a movable trailer.”). Because only a
single property right was taken, Lucas fell within the regulatorytakings framework. And the Court set out a “total” regulatorytakings doctrine for the South Carolina Supreme Court to apply
on remand. See id. at 1027–32.

35a
Loretto, Horne, and Andrus highlight key distinctions that determine the applicability of either the
classic or the regulatory framework. In Loretto, government action “effectively destroyed” the owner’s core
property rights to possess and use his property, and it
impaired the owner’s right to dispose of his property.
458 U.S. at 421. And in Horne, the government’s
reserve requirement similarly eliminated the handler’s property rights to possess, use, and dispose. See
135 S. Ct. at 2427. Accordingly, the Court applied the
classic takings framework in Loretto and Horne. But
in Andrus, the owner retained the rights to possess,
transport, and donate his property, losing only a single
property right—the right to sell. 444 U.S. at 68; see
also Lucas, 505 U.S. at 1009. So the Court used a
regulatory framework. Together, these cases teach
that when government action cuts across a broad
swath of property rights, the classic framework
applies. (For this reason, both physical appropriations
and ousters of possession are classic takings.) But
where only a single property right is taken or
impaired—such as a use or sale regulation—the
regulatory-takings framework provides the proper
mode of analysis.
With these distinctions in mind, I find the classictakings framework applies to Maryland’s ban. That
ban expressly eliminates the current owners’ property
rights to possess, transport, donate, devise, transfer,
or sell their devices. §§ 4-305.1(a), 4-306(a). Not only
does this list destroy all the rights the Supreme Court
found crucial in Andrus, but it goes beyond even those
rights “effectively destroyed” in Loretto and Horne.
The Loretto plaintiff could at least sell the occupied
property—even if that right was void of value. And the
Horne raisin handlers retained a contingent interest
in the profits from the sales of the set-aside raisins.

36a
But here, Plaintiffs are prohibited not just from
“sell[ing]” their property, but from even “offer[ing] to
sell” their devices or “transfer[ing]” them, such as by
donation or devise. §§ 4-305.1(a). So the law is a far cry
from the destruction of a single strand of the owner’s
property—it is a blunt chop through the bundle of
rights that gives rise to a classic taking.
Moreover, the physical consequences of the enumerated list—although obvious—make the classic nature
of this taking clear. Surely, the government must
compensate owners for their personal property if it
physically dispossesses owners. See Horne, 135 S. Ct.
at 2428. But Maryland instead requires owners to
physically dispossess themselves—or face imprisonment.10 The dispossession mandate leaves the owner
with a finite list of tangible options to effect dispossession of their rapid fire trigger activators: destroy them,
trash them, abandon them, or surrender them. So a
ban on possession is not just “‘the functional equivalent of a practical ouster of the owner’s possession,’
like the permanent flooding of property.” Murr, 137 S.
Ct. at 1942 (internal citations omitted). A possession
ban is an actual ouster. See Oust, Black’s Law
Dictionary (11th ed. 2019) (“To put out of possession.”);
Oust, 7 Oxford English Dictionary 240 (2d ed. 1989)
(“To put out of possession, eject, dispossess, disseise.”).
In other words, the possession ban does not make
property ownership uneconomical or undesirable, as
in a regulatory taking. It actually and physically
defeats one’s property rights—a classic taking.
10

Cf. Richard A. Epstein, Takings: Private Property and the
Power of Eminent Domain 66 (1985) (“That the government has
not taken physical possession of the land is neither here nor
there. It clearly will enter the land by force” if its edict is “not
respected by the parties who are subject to it.”).

37a
Notably, the Maryland ban lacks the features that
have traditionally prevented firearms-related regulations from being considered classic takings—namely
use restrictions or registration options for existing
owners. See Note, The Public Use Test: Would a Ban
on the Possession of Firearms Require Just Compensation, 49 LAW & CONTEMP. PROBS. 223, 246 (1986)
(discussing how regulations are typically drawn to
avoid outright takings or absolute bans on possession).
For example, in Association of New Jersey Rifle &
Pistol Clubs, Inc. v. Attorney General of New Jersey,
the Third Circuit considered whether New Jersey’s
partial ban on the possession of magazines that held
greater than ten rounds of ammunition amounted to a
taking. 910 F.3d 106 (3d Cir. 2018). There, the court
reasoned that the per se framework did not apply
“because owners have the option to transfer or sell
their [magazines] to an individual or entity who can
lawfully possess [them], modify their [magazines] to
accept fewer than ten rounds, or register” the
magazines. Id. Here, Plaintiffs have no such options.
Although the Maryland ban purports to allow for
registration of rapid fire trigger activators with the
ATF, that provision never took effect. See Bureau of
Alcohol, Tobacco, Firearms & Explosives Special
Advisory, Maryland Law Restricting “Rapid Fire
Trigger Activators” (Apr. 24, 2018).11
11

Unlike the New Jersey case, in Duncan v. Becerra, a federal
district court found that a more restrictive California magazine
regulation was a taking. 265 F. Supp. 3d 1106, 1137 (S.D. Cal.
2017), aff’d, 742 F. App’x 218 (9th Cir. 2018). In Duncan, the
California law, also banning magazines holding more than ten
rounds, “provid[ed] three options for dispossession.” First, an
owner may “remove the large-capacity magazine from the State.”
Id. at 1110 (citation omitted). Second, one may “sell the largecapacity magazine to a licensed firearm dealer.” Id. (citation

38a
For these reasons, I would find that Plaintiffs’ factual allegations are sufficient to show that Maryland’s
ban is a classic taking. So I would allow Plaintiffs’
Fifth Amendment claim to proceed.12
According to the majority, the classic line of cases is
simply inapplicable. In their view, the ban “does not
require owners of rapid fire trigger activators to turn
them over to the Government or to a third party.”
Majority Op. 17. I do not find this distinction persuasive, and neither has the Supreme Court. Property
need not be turned over to the government to effect a
classic taking. See Loretto, 458 U.S. at 433 n.9; cf. Kelo,
545 U.S. at 477 (“[A] State may transfer property from
one private party to another.”). Indeed, property need
not physically be turned over to anyone at all—not
even a “third party”—for a classic taking to arise. For
instance, in Pumpelly v. Green Bay & Mississippi
Canal Co., Wisconsin argued that property was not
omitted). And third, a person may “surrender the large-capacity
magazine to a law enforcement agency for destruction.” Id. (citation omitted). Although California provided three options for
disposal, the court emphasized that the regulation deprived
owners of “not just use of their property, but of possession, one of
the most essential sticks in the bundle of property rights.” Id. at
1138 (emphasis in original). So it found a taking—although under
a novel “hybrid takings” theory. See id. Here, the Maryland law
goes even further: it requires dispossession without the possibility of sale.
12

For the same reasons, I would allow Plaintiffs’ state law
takings claim to proceed. Article 24 of the Maryland Declaration
of Rights provides “That no man ought to be . . . deprived of his
life, liberty or property, but by the judgment of his peers, or by
the Law of the land.” The Maryland Court of Appeals has held
that, at a minimum, Article 24 provides the same protections for
property as the Fifth Amendment. See, e.g., Raynor v. Maryland
Department of Health & Mental Hygiene, 110 Md. App. 165, 185
(1996).

39a
taken by the state when an owner’s land was flooded
after the construction of a dam. 80 U.S. 166, 178
(1871).13 In response, the Supreme Court explained:
It would be a very curious and unsatisfactory
result, if in construing a provision of constitutional law, always understood to have been
adopted for protection and security to the
rights of the individual as against the government . . . it shall be held that if the government refrains from the absolute conversion of
real property . . . it can, in effect, subject it to
total destruction without making any compensation, because in the narrowest sense of
that word, it is not taken.
Id. at 177–78 (emphasis in original).14 So Pumpelly
was a taking because the owners’ property rights were
destroyed, not because their rights were transferred to
another indeed, no transfer occurred at all. See id. at
174, 177–80; see also Murr, 137 S. Ct. at 1942 (noting
that “the permanent flooding of property” is the “functional equivalent of a practical ouster of the owner’s
possession” and thus a classic taking). So too here.
13

“The defendant’s lands have not been taken or appropriated.
They are only affected by the overflow occasioned by raising the
water in Lake Winnebago. Whatever may be the extent of this
injury, it is remote and consequential and without remedy.”
Pumpelly, 80 U.S. at 174 (argument of the appellee) (emphasis in
original).
14

Although Pumpelly was a pre-incorporation case that arose
from the Takings Clause of the Wisconsin Constitution, the Court
noted that the state and federal provisions were “almost identical
in language.” Id. at 177–78. And Pumpelly has continued to serve
as an important precedent for modern takings claims under the
federal constitution. See, e.g., Loretto, 458 U.S. at 433 n.9; First
English, 482 U.S. at 316–17.

40a
Additionally, the majority says that Holliday
Amusement Co. of Charleston, Inc. v. South Carolina,
493 F.3d 404 (4th Cir. 2007), decides this case.
Holliday, which “required forfeiture of [] gambling
machines,” Majority Op. 17, may indeed explain
the failure of Plaintiffs’ claim under Lucas’ “total”
regulatory-takings doctrine. But it has nothing to say
about the merits of Plaintiffs’ classic-takings claim
under Loretto and Horne. As our Court explained in
Holliday, those plaintiffs proceeded under a regulatorytakings theory, not a classic-takings theory. See id. at
407, 410, 411 n.2.15 And as discussed above, regulatorytakings precedents are distinct from classic-takings
precedents. See Horne, 135 S. Ct. at 2429; TahoeSierra Pres. Council, 535 U.S. at 323. Indeed, the
Holliday court denied compensation under a regulatorytakings framework based on South Carolina’s traditionally high degree of control over gambling activities. See Holliday Amusement, 493 F.3d at 410–11. But
as Horne makes clear, background principles of state
law have no place in the classic-takings analysis—the
Government has a per se duty “to pay just compensa-

15

I find it unsurprising that plaintiffs in Holliday Amusements
did not make this argument. Before the Supreme Court’s decision
in Horne, many courts and commentators believed different per
se rules applied for personal and real property. See generally
Horne v. Department of Agriculture, 750 F.3d 1128, 1140 (9th Cir.
2014). But as the Supreme Court has since made clear: “Nothing
in the text or history of the Takings Clause, or our precedents,
suggests that the rule is any different when it comes to appropriation of personal property.” Horne, 135 S. Ct. at 2426; see also
James v. Campbell, 104 U.S. 356, 358 (1882) (discussing the
taking of patents).

41a
tion when it takes your car, just as when it takes your
home.” 135 S. Ct. at 2426.16
On the other hand, the district court seems to
suggest that the classic framework does not apply
because device owners may retain some property
interests. See J.A. 246 n.8; Horne, 135 S. Ct. at 2437
(Sotomayor, J., dissenting) (“[E]ach and every property right must be destroyed by governmental action
before that action can be said to have effected a per se
taking.”). In this view, if “even one property right”
remains, the regulatory-takings framework provides
the appropriate analysis. Id. at 2438 (Sotomayor, J.,
dissenting).
Assuming the ban left some ability to transfer the
devices out of state, any such rights would not defeat
the classic-takings analysis. First, it is simply incorrect that the government must destroy every stick in
the bundle of property rights to effect a taking. As
described above, in Loretto, the owner retained the
right to sell or transfer the occupied property. 458 U.S.
at 437. The court still applied a per se framework. See
also Horne, 135 S. Ct. at 2428.17
16
For the same reasons, the cases cited in Maryland’s brief on
this issue are inapposite. Mugler v. Kansas, for instance, was a
regulatory-takings case involving a prohibition on the use of land
for the manufacture and sale of alcoholic beverages; it in no way
ousted the owners from their land. 8 S. Ct. 273, 279 (1887)
(explaining “the owner is in nowise deprived of his property”)
(emphasis in original); see also Lucas, 505 U.S. at 1022 (describing Mugler as one of the Court’s “early attempt[s]” to explain why
the government may “affect property values by regulation without incurring an obligation to compensate”) (citing Penn Central,
438 U.S. at 125).
17
Cf. Kaiser Aetna v. United States, 444 U.S. 164, 165–66
(1979). In Kaiser Aetna, the Supreme Court considered whether
the government “took” property within the meaning of the Fifth

42a
Second, the statute unambiguously destroys Plaintiffs’ ability to possess, use, or transfer property in the
state where they reside. Never before have we
required individuals to leave a jurisdiction to enjoy
constitutional protections. Cf. Clark v. Community
for Creative Non-Violence, 468 U.S. 288, 293 (1984)
(explaining that a locality’s First Amendment “time,
place, or manner restrictions” must leave open “ample
alternative channels”). And we should not do so today.
The incorporated provisions of the Bill of Rights limit
the powers of the several states, “necessarily tak[ing]
certain policy choices off the table.” District of
Columbia v. Heller, 554 U.S. 570, 636 (2008). And
incorporation would be hollow indeed if it provided no
protection from State power so long as one can go
elsewhere to exercise his “rights.” See McDonald v.
Chicago, 561 U.S. 742, 790 (2010) (“Incorporation
always restricts experimentation and local variations.”). The Fifth Amendment prohibits uncompensated takings; it does not require flight to avoid them.
* * *

Amendment when it required owners to afford public access to a
marina created when the owners connected a private pond to a
Hawaiian bay. The marina proprietors retained their ownership
of the marina and could continue to charge their customers an
annual $72 fee. See id. at 179–80. And they similarly retained the
right to sell, transfer, or devise their property. See id. But, by
requiring public access, the owners lost the property right to
exclude others. Homing in on the loss of this right to exclude, the
Supreme Court held “that the ‘right to exclude,’ so universally
held to be a fundamental element of the property right, falls
within this category of interests that the Government cannot take
without compensation.” Id. (footnote and citations omitted). So it
found just compensation to be required.

43a
As Justice Holmes noted almost a century ago, “a
strong public desire to improve the public condition is
not enough to warrant achieving the desire by a
shorter cut than the constitutional way of paying
for the change.” Mahon, 260 U.S. at 416. And as
Alexander Hamilton recognized, “one great obj. of
Govt. is personal protection and security of Property.”
1 Records of the Federal Convention of 1787, at 302
(Max Farrand ed., 1911); see also John Locke, Second
Treatise of Government 62 (Blackwell ed., 1946)
(describing the “great and chief end” of government as
“the preservation of . . . property”). Indeed, constitutional restraints on the government’s power over private property are deeply rooted in our history, and
they have been integral to the preservation of personal
liberty and improved human condition over time. See
generally Douglass C. North & Barry R. Weingast,
Constitutions and Commitment: The Evolution of
Institutions Governing Public Choice in SeventeenthCentury England, 44 J. ECON. HIST. 803 (1989).
I do not doubt the sincerity of the Maryland legislature passing this ban. But in my view, it requires
paying just compensation. By banning “rapid fire
trigger activators” without exception, Maryland law
destroys the panoply of property rights that private
owners previously enjoyed—including possession, use,
and devise. This amounts to a classic taking of private
property under the Fifth Amendment, so I would allow
this case to proceed.

44a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[Filed: July 27, 2020]
————
No. 18-2474
(1:18-cv-01700-JKB)
————
MARYLAND SHALL ISSUE, INCORPORATED;
PAUL MARK BROCKMAN; ROBERT BRUNGER;
CAROLINE BRUNGER; DAVID ORLIN, all of the above
individually named plaintiffs on behalf of
themselves and all others similarly situated
Plaintiffs-Appellants
v.
LAWRENCE HOGAN, in his
capacity of Governor of Maryland
Defendant-Appellee
GIFFORDS LAW CENTER TO PREVENT GUN VIOLENCE
Amicus Supporting Appellee
————
ORDER
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing
en banc.
Entered at the direction of the panel: Judge Floyd,
Judge Thacker, and Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

45a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
[Filed: November 16, 2018]
————
Civil No. JKB-18-1700
————
MARYLAND SHALL ISSUE, et al.
Plaintiffs,
v.
LAWRENCE HOGAN, in his official capacity as
Governor of Maryland
Defendant.
————
MEMORANDUM
I. Introduction1
On October 1, 2017, a gunman opened fire on a
concert crowd in Las Vegas. In the span of barely ten
minutes, the attacker unleashed hundreds of rounds
of ammunition, killing 58 people and injuring more
than 850. It was the deadliest mass shooting in the
modern era. (Brief of Amicus Curiae Giffords Law
Center to Prevent Gun Violence in Support of Def. at
2, ECF No. 13-1.) The shooter used semiautomatic
rifles modified with devices known as “bump stocks,”
which enabled rapid fire approaching the rate of a

1

In this Introduction, in order to set the context, the Court
takes notice of certain background facts about which there
appears to be no genuine issue.

46a
fully automatic machine gun. (Id. at 2, 4.2) According
to the Department of Justice,
[o]rdinarily, to operate a semiautomatic firearm, the shooter must repeatedly pull and
release the trigger to allow it to reset, so that
only one shot is fired with each pull of the
trigger. When a bump-stock-type-device is
affixed to a semiautomatic firearm, however,
the device harnesses the recoil energy to slide
the firearm back and forth so that the trigger
automatically re-engages by ‘bumping’ the
shooter’s stationary trigger finger without
additional physical manipulation of the
trigger by the shooter. The bump-stock-type
device functions as a self-acting and selfregulating force that channels the firearm’s
recoil energy in a continuous back-and-forth
cycle that allows the shooter to attain
continuous firing after a single pull of the
trigger . . . .
Dep’t of Justice, Bureau of Alcohol, Tobacco, Firearms,
& Explosives (ATF), Bump-Stock-Type Devices, 83
Fed. Reg. 13442, 13443 (proposed Mar. 29, 2018)
[hereinafter “DOJ Notice of Proposed Rulemaking”]
(cited in Amicus Brief at 2).
2

The Las Vegas shooter fired an estimated ninety rounds in
ten seconds, while a fully automatic machine gun can fire approximately ninety-eight shots in seven seconds; by comparison, the
rate of fire for an unmodified semiautomatic weapon is in the
range of twenty-four rounds in nine seconds. (See Amicus at 4
(citing Larry Buchanan, et al., What Is a Bump Stock and How
Does It Work?, N.Y. Times (Feb. 20, 2018), https://www.nytimes.
com/interactive/2017/10/04/us/bump-stock-las-vegas-gun.html).)
The addition of a bump stock to a semiautomatic firearm can
therefore mean an increase of hundreds of shots per minute. Id.

47a
Machine guns have been regulated under federal
law for decades. See e.g., National Firearms Act of
1934, Pub. L. No. 73-474, 48 Stat. 1236 (codified as
amended at I.R.C. §§ 5801–5872); Firearms Owners’
Protection Act of 1986, Pub. L. No. 99-308, 100 Stat.
449 (codified as amended at 18 U.S.C. §§ 921–927,
929(a)). However, federal law does not classify most
bump-stock-type devices as machine guns, despite
their impact on a semiautomatic weapon’s rate of fire.
See DOJ Notice of Proposed Rulemaking, 83 Fed. Reg.
at 13444–46 (summarizing the history of ATF decisions involving bump stocks). Largely unregulated,
such devices are widely available, often for $200 or
less. (Amicus Brief at 6.)
In the wake of the Las Vegas shooting, numerous
elected officials called for changes to federal law. DOJ
Notice of Proposed Rulemaking, 83 Fed. Reg. at 13446.
Even the National Rifle Association publicly declared
support for more stringent regulation. See Polly
Mosendz & Kim Bhasin, Bump-Fire Stock Prices
Double, Thanks to the NRA, Bloomberg (Oct. 5, 2017),
https://www.bloomberg.com/news/articles/2017-10-05/
bump-fire-stock-prices-double-thanks-to-the-nra (cited
in Amicus Brief at 6 n.17). In early 2018, President
Trump “directed the Department of Justice . . . ‘to
dedicate all available resources[,] . . . as expeditiously
as possible, to propose for notice and comment a rule
banning devices that turn legal weapons into
machineguns.’” DOJ Notice of Proposed Rulemaking,
83 Fed. Reg. at 13446 (quoting Exec. Office of the
President, Memorandum for the Attorney Gen., Application of the Definition of Machinegun to ‘Bump Fire’
Stocks and Other Similar Devices, 83 Fed. Reg. 7949,
7949 (Feb. 23, 2018)). Shortly thereafter, DOJ proposed a rule that would reclassify bump-stock-type

48a
devices as machine guns under federal law, id. at
13442, but no changes have yet been made.
The Maryland General Assembly moved more decisively. In April 2018, the democratically elected
representatives of Maryland enacted Senate Bill 707,
which made manufacture, sale, transport, or possession of “rapid fire trigger activators,” including bump
stocks and similar devices, unlawful in Maryland.
2018 Md. Laws ch. 252 (to be codified as amended at
Md. Code Ann., Crim. Law §§ 4-301, 4-305.1, and 4306) [hereinafter “SB-707”]. In crafting the law, legislators expressed concern about mass shootings, the
lethality of firearms equipped with bump-stock-type
devices, their unregulated status, and the danger to
public safety. See S. Judicial Proceedings Comm. Floor
Rep. on SB-707, at 4, 2018 Reg. Sess. (Md. 2018)
(citing the Las Vegas shooting, lack of federal
regulation, and the ability for such devices to enable
“rates of fire between 400 to 800 rounds per minute”);
Testimony of Sen. Victor R. Ramirez in Support of SB707 at 2, S. Judicial Proceedings Comm., 2018 Reg.
Sess. (Md. 2018) (“[T]here is no reason someone should
be making a semi-automatic weapon into an automatic
weapon[.] [W]ith the ban o[n] rapid fire trigger
activators[,] we can . . . sav[e] . . . innocent lives, and
minimiz[e] the magnitude of tragic events such as the
Las Vegas shooting.”) Seven other states similarly
moved to restrict bump-stock-type devices. (Amicus at
11 n.33 (referring to laws in Connecticut, Delaware,
Florida, Hawaii, New Jersey, Rhode Island, and
Washington).)
In this case, a putative class action filed on June
11, 2018, Plaintiffs seek to invalidate SB-707’s
restrictions on bump stocks and similar devices.
Plaintiff Maryland Shall Issue, Inc. (MSI), a non-profit

49a
membership organization “dedicated to the preservation and advancement of gun owners’ rights in
Maryland,” asserts claims on its own behalf, and on
behalf of its members and others similarly situated.
(Compl. ¶ 8, ECF No. 1.) Four individual MSI members are also named as individual plaintiffs. (Id. ¶¶ 912.) Plaintiffs have sued Governor Larry Hogan in his
official capacity, alleging that SB-707 violates their
constitutional rights under the Federal and State
Constitutions. (Id. ¶ 3.) The Complaint puts forward
five counts: a violation of the Takings Clause of the
Fifth Amendment of the United States Constitution,
applicable to the states via the Fourteenth Amendment (Count I); a violation of the Takings Clause of the
Maryland Constitution, Article III, § 40 (Count II); a
violation of the federal Due Process Clause, because of
the imposition of an impossible condition (Count III);
a violation of the federal Due Process Clause, because
of vagueness (Count IV); and a violation of Article 24
of the Maryland Constitution, because of the
abrogation of vested property rights (Count V). (Id.)
Currently before the Court is Defendant’s motion to
dismiss under Federal Rule of Civil Procedure 12(b)(6)
for failure to state a claim upon which relief can be
granted. (ECF No. 9.) The issue is fully briefed, and no
hearing is required. See Local Rule 105.6 (D. Md.
2016). For the reasons set forth below, Defendant’s
motion will be granted as to all counts of the Complaint.
II. Factual Background
On April 24, 2018, Governor Hogan signed Senate
Bill 707 (“the Act,” or “SB-707”) into law. (Compl.
¶ 13.) The Act makes it unlawful for any person to
“manufacture, possess, sell, offer to sell, transfer, purchase, or receive a rapid fire trigger activator” or to

50a
“transport” such a device into the state. SB-707, sec. 2,
§ 4-305.1(a). Violation of the Act is a criminal misdemeanor subject to a term of imprisonment up to three
years, a fine of up to $5,000, or both. SB-707, sec. 1,
§ 4-306(a).
The Act defines a “rapid fire trigger activator” to be
“any device, including a removable manual or powerdriven activating device, constructed so that, when
installed in or attached to a firearm the rate at which
the trigger is activated increases; or the rate of fire
increases.” SB-707, sec. 1, § 4-301(M)(1). The term is
defined to include “a bump stock, trigger crank, hellfire trigger, binary trigger system, burst trigger system, or a copy or a similar device, regardless of the
producer or manufacturer.” § 4-301(M)(2). These named
devices are defined as follows:


“Bump Stock” is defined as “a device that,
when installed in or attached to a firearm,
increases the rate of fire of the firearm by
using energy from the recoil of the firearm
to generate a reciprocating action that
facilitates repeated activation of the trigger.” § 4-301(F).



“Trigger Crank” is defined as “a device
that, when installed in or attached to a
firearm, repeatedly activates the trigger of
the firearm through the use of a crank, a
lever, or any other part that is turned in a
circular motion.” § 4-301(N).



“Hellfire Trigger” is defined as “a device
that, when installed in or attached to
a firearm, disengages the trigger return
spring when the trigger is pulled.”
§ 4-301(K).





51a
“Binary Trigger System” is defined as “a
device that, when installed in or attached
to a firearm, fires both when the trigger
is pulled and on release of the trigger.”
§ 4-301(E).
“Burst Trigger System” is defined as “a
device that, when installed in or attached
to a firearm, allows the firearm to discharge two or more shots with a single pull
of the trigger by altering the trigger reset.”
§ 4-301(G).

Finally, the Act exempts from the definition any
“semiautomatic replacement trigger that improves the
performance and functionality over the stock trigger.”
§ 4-301(M)(3).
The Act contains an exception clause to permit
certain individuals to continue to possess the otherwise prohibited devices in Maryland, provided that the
individual:
(1) possessed the rapid fire trigger activator
before October 1, 2018; (2) applied to the
[ATF] before October 1, 2018, for authorization to possess a rapid fire trigger activator;
(3) received authorization to possess a rapid
fire trigger activator from the [ATF] before
October 1, 2019; and (4) is in compliance with
all federal requirements for possession of a
rapid fire trigger activator.
SB-707, sec. 2, § 4-305.1(b). Most provisions of the Act
went into effect on October 1, 2018. (Compl. ¶ 13.) The
requirement that an individual have received “authorization” from the ATF to qualify for the exception does
not go into effect until October 1, 2019. SB-707, sec. 3.

52a
On the same day that the Act was signed into law,
the ATF issued a “Special Advisory” on its website
stating that “ATF is without legal authority to accept
and process” applications for authorization under the
Act. (Compl. ¶ 32 (quoting Special Advisory, Bureau of
Alcohol, Tobacco, Firearms & Explosives, Maryland
Law Restricting ‘Rapid Fire Trigger Activators,’ (Apr.
24, 2018) [hereinafter ATF Special Advisory], https://
www.atf.gov/news/pr/maryland-law-restricting-rapidfire-trigger-activators).) The Advisory declared that
“[a]ny such applications or requests will be returned
to the applicant without action.” (Id. (quoting ATF
Special Advisory).)
According to the Complaint, Plaintiff MSI is a nonprofit organization that works to “educate the community about the right of self-protection, the safe handling of firearms, and the responsibility that goes with
carrying a firearm in public.” (Compl. ¶ 8.) Its purpose
is to “promot[e] the exercise of the right to keep and
bear arms,” and to conduct activities including “education, research, and legal action focusing on the Constitutional right to privately own, possess and carry
firearms and firearms accessories.” (Id.) MSI sues on
its own behalf, alleging that SB-707 “undermin[es] its
message and act[s] as an obstacle to the organization’s
objectives and purposes,” and sues on behalf of its
members, who “currently possess ‘rapid fire trigger
activators’ which are effectively and totally banned
by” the Act. (Id.) The individual Plaintiffs, Paul
Brockman, Robert Brunger, Caroline Brunger, and
David Orlin, are all Maryland residents and MSI
members, each of whom is alleged to have lawfully
owned one or more of the devices prior to the Act’s
effective date. (Id. ¶¶ 9–11.) Plaintiffs seek compensatory damages for the loss of their banned devices, as

53a
well as declaratory and permanent injunctive relief to
bar enforcement of the Act. (Id. ¶ 4.)
III. Standard for Dismissal under Rule 12(b)(6)
A complaint must contain “sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 570 (2007)). In analyzing a Rule 12(b)(6)
motion, the Court views all well-pleaded allegations in
the light most favorable to the plaintiff. Ibarra v.
United States, 120 F.3d 472, 474 (4th Cir. 1997).
Nevertheless, “[f]actual allegations must be enough to
raise a right to relief above the speculative level.”
Twombly, 550 U.S. at 555. “A pleading that offers
‘labels and conclusions’ or . . . ‘naked assertion[s]’
devoid of ‘further factual enhancement’” will not
suffice. Iqbal, 556 U.S. at 678 (alteration in original)
(citation omitted) (quoting Twombly, 550 U.S. at 555,
557). The Court must be able to infer “more than the
mere possibility of misconduct.” Id. at 679. In addition,
the Court “need not accept legal conclusions couched
as facts or ‘unwarranted inferences, unreasonable conclusions, or arguments.’” Wag More Dogs, LLC v.
Cozart, 680 F.3d 359, 365 (4th Cir. 2012) (quoting
Giarratano v. Johnson, 521 F.3d 298, 302 (4th Cir.
2008)).
IV. Analysis
Although the Complaint alleges five counts, Plaintiffs have four main theories of relief:


In Counts I and II, Plaintiffs argue that
the Act is a per se taking without just
compensation under the United States
Constitution, as well as the Maryland
Constitution, to the extent its Takings

54a
Clause follows federal law. (See Compl.
¶ 21 (citing Litz v. Md. Dep’t of Env’t., 131
A.3d 923, 930 (Md. 2016) (“[T]he decisions
of the Supreme Court on the Fourteenth
Amendment are practically direct authorities [for construing Article III, § 40].”)).)


In Counts II and V, Plaintiffs put forward
a separate per se takings theory under the
State Constitution—that the Act retrospectively abrogates vested property rights
in violation of Article 24, which also constitutes a taking under Maryland law.
(See id. ¶ 70 (citing Dua v. Comcast Cable
of Md., Inc., 805 A.2d 1061, 1076 (Md.
2002) (“A statute having the effect of
abrogating a vested property right, and
not providing for compensation, does ‘authoriz[e] private property[]’ to be taken . . .
without just compensation (Article III,
§ 40). Concomitantly, such a statute results
in a person . . . being ‘deprived of his . . .
property’ contrary to ‘the law of the land’
(Article 24).”)).)



In Count IV, Plaintiffs argue that the Act
is unconstitutionally vague, because its
terms can be read to encompass a number
of devices that have only “minimal” impact
on a firearm’s rate of fire and are otherwise functionally and operationally dissimilar to bump stocks and other devices
named in the Act. (Id. ¶¶ 61–66.)



In Count III, Plaintiffs argue that ATF’s
refusal to process applications and grant
authorizations for continued lawful possession makes it “legally impossible to

55a
comply” with the Act’s exception clause,
thus imposing a “legally impossible condition precedent” that violates due process
and cannot be severed from the rest of the
Act. (Id. ¶¶ 55–57.)
The Court will address each of these claims in turn.
Before analyzing Plaintiffs’ claims, however, the
Court must first address a preliminary jurisdictional
issue. According to the Complaint, Plaintiff MSI
sues on its own behalf (organizational or “individual”
standing) and on behalf of its members (associational
or representational standing). (Id. ¶ 8.) However, MSI
does not allege a direct harm to itself sufficient to
support standing in a non-representational capacity.
A plaintiff’s standing to sue in federal court is “an
integral component of the case or controversy requirement” of Article III, implicating the court’s subject
matter jurisdiction. Miller v. Brown, 462 F.3d 312, 316
(4th Cir. 2006). “Courts have an independent obligation to determine whether subject-matter jurisdiction
exists, even when no party challenges it.” Hertz Corp.
v. Friend, 559 U.S. 77, 94 (2010). The first requirement
to establish standing is that a plaintiff shows that it
has suffered an injury in fact to a legally cognizable
interest that is “concrete and particularized.” Lujan v.
Defs. of Wildlife, 504 U.S. 555, 560 (1992).
Here, the only direct harm MSI alleges to support
standing in its non-representational, organizational
capacity is that the Act “undermin[es] [MSI’s] message
and act[s] as an obstacle to the organization’s objectives and purposes.” (Compl. ¶ 8.) In short, MSI
disagrees with the policy decisions of the Maryland
Legislature embodied in SB-707, which are inconsistent with MSI’s own policy objectives. To the extent
this is an “injury” at all, it is neither concrete, nor

56a
particularized. “[A] mere interest in a problem, no
matter how longstanding the interest and no matter
how qualified the organization is in evaluating the
problem, is not sufficient [to establish standing].”
Sierra Club v. Morton, 405 U.S. 727, 739 (1972).
Therefore, MSI lacks standing to bring claims on its
own behalf. Accordingly, in evaluating the motion to
dismiss, the Court will only consider MSI’s allegations
as to harms suffered by its individual members.
A. Takings Claim (Counts I and II)
Plaintiffs allege that SB-707 effects a “per se
taking,” because it bans the manufacture, sale, transfer, transport, possession, purchase, or receipt of rapid
fire trigger activators without compensation. (Compl.
¶¶ 14, 18, 20–27, 49, 52.) The Court will first address
this theory under the federal Takings Clause, and
under Maryland’s Taking Clause, Art. III, § 40, to the
extent its protections are analogous to its federal
counterpart. Litz, 131 A.3d at 930.
i. The Act regulates rapid fire trigger activators as contraband, a legitimate exercise of the state’s traditional police power
to regulate for public safety.
Plaintiffs argue that any ban on possession of personal property is a taking requiring payment of just
compensation, no matter how dangerous or threatening the property might be to public safety. (Opp’n Mot.
Dismiss at 7–8, 11–12, ECF No. 23). Under Plaintiffs’
theory, a state may ban the sale or particular uses of
existing items of personal property, but a state may
never ban possession of any item that is already
lawfully owned. (Id. ¶ 16 (“Maryland is not free to
declare existing lawfully owned and lawfully acquired
property to be ‘contraband’ . . . .”).) This theory would

57a
entail a radical curtailment of traditional state police
powers, one that flies in the face of a long history of
government prohibitions of hazardous contraband.
A state’s interest in “the protection of its citizenry
and the public safety is not only substantial, but
compelling.” Kolbe v. Hogan, 849 F.3d 114, 139 (4th
Cir. 2017) (en banc). (See also Mot. Dismiss Mem.
Supp. at 7, ECF No. 9-1.) In recognition of this and
other important state police powers, the Supreme
Court has routinely upheld property regulations, even
those that “destroy[]” a recognized property interest,
where a state “reasonably concluded that the health,
safety, morals, or general welfare” would be advanced.
Penn Cent. Transp. Co. v. New York City, 438 U.S. 104,
125 (1978); see also Mugler v. Kansas, 123 U.S. 623,
668 (1887) (“A prohibition . . . upon the use of property
for purposes that are declared, by valid legislation,
to be injurious to the health, morals, or safety of
the community, cannot, in any just sense, be deemed
a taking . . . .”); cf. Holliday Amusement Co. of
Charleston, Inc. v. South Carolina, 493 F.3d 404, 411
n.2 (4th Cir. 2007) (stating that regulations for the
public good in heavily regulated fields “per se do not
constitute takings”).
These principles are entirely consistent with the
long history of state laws that criminalize, ban, or
otherwise restrict items deemed hazardous under the
police power. See, e.g., Md. Code. Ann., Crim. Law
§§ 4-303(a) (assault weapons), 4-305(b) (large capacity,
detachable magazines), 4-402 to 4-405 (machine guns),
and 4-503 (destructive, explosive, and incendiary
devices, and toxic materials); Md. Code Ann., Crim.
Law §§ 5-601(a) (controlled dangerous substances),
5-619(c) (drug paraphernalia), and 5-620(a) (controlled
paraphernalia); Md. Code Ann., Crim. Law §§ 11-

58a
207(a)(4)–(5) (child pornography); Md. Code Ann.,
Envir. § 6-301 (lead-based paint); Md. Code Ann.,
Agric. § 9-402(6) (noxious weeds and exotic plants);
Md. Code Ann., Pub. Safety § 10-104(a) (fireworks);
Kolbe v. Hogan, 849 F.3d at 120 (assault weapons and
large capacity magazines); see also Garcia v. Village of
Tijeras, 767 P.2d 355 (N.M. Ct. App. 1988) (pit bulls).3
Plaintiffs argue that many existing and past bans
were more limited in scope than SB-707, for example,
because they banned sale, but not possession, or
banned possession, but not in all circumstances.
(Opp’n Mot. Dismiss at 11, 17–18.) This only suggests
that legislatures may have been persuaded, for political or policy-based reasons, that narrower laws
were warranted under past circumstances. In this
case, the Maryland General Assembly concluded
otherwise. Plaintiffs point to no authority holding such
prior legislative concessions to be constitutionally
mandated.
Plaintiffs also make much of the fact that, prior to
the passage of SB-707, rapid fire trigger activators
were “lawful property” in Maryland, “not contraband.”
(Id. at 16.) Although true, this point is irrelevant.
Practically all products later defined as contraband
3

Contraband laws are also a normal part of the regulatory
landscape at the federal level. Although Congress lacks a broad
police power to regulate for the general welfare, federal statues
similarly criminalize, ban, and restrict contraband items, pursuant to Congress’s enumerated powers. See, e.g., Controlled Substances Act of 1970, Pub. L. No. 91-513, 84 Stat. 1242 (illicit
drugs); Firearms Owners’ Protection Act, 100 Stat. at 449
(machine guns); Child Pornography Prevention Act of 1996, Pub.
L. 104-208, sec. 121, 110 Stat. 3009-26 (child pornography); Akins
v. United States, 82 Fed. Cl. 619 (2008) (firearm accessory known
as the Akins accelerator); 16 C.F.R. § 1500.18 (lawn darts and
other hazardous toys).

59a
were not contraband before the enactment of the law
that named them as such. Rapid fire trigger activators
used to be lawful in Maryland, but SB-707 makes
them unlawful. This is a predictable and uncontroversial consequence of new criminal laws: they criminalize things that would not have been criminal but for
the law. Ignoring this basic truth about the nature of
criminal legislation, Plaintiffs suggest that states can
pass and enforce contraband laws only with respect to
items that were already defined as contraband (id. at
15), a circular argument leading to absurd results—
nothing could be contraband unless it was already
contraband. Under such an approach, public safety
regulations would be permanently frozen in the past,
and states would be inhibited from addressing new
threats to the public, no matter how grave. The
Constitution does not tie the hands of state governments to such crippling effect.
To the contrary, in the context of firearms specifically, the Supreme Court confirmed that our nation’s
“historical tradition of prohibiting” “dangerous and
unusual weapons” is entirely consistent with the
Constitution. District of Columbia v. Heller, 554 U.S.
570, 627 (2008); see also United States v. Pruess, 703
F.3d 242, 246 n.2 (4th Cir. 2012) (quoting Heller, 554
U.S. at 627). The Court concluded that the Constitution “does not protect those weapons not typically
possessed by law abiding citizens for lawful purposes,”
like machine guns (which rapid fire trigger activators
mimic), or “sophisticated arms” designed for modern
warfare. Heller, 554 U.S. at 625, 627. In upholding
Maryland’s assault weapons ban, the Fourth Circuit,
applying these principles, reasoned that:
like their fully automatic counterparts, the
banned assault weapons are firearms de-

60a
signed for the battlefield, for the soldier to be
able to shoot a large number of rounds
across a battlefield at a high rate of speed.
Their design results in a capability for
lethality—more wounds, more serious, in
more victims—far beyond that of other firearms in general, including other semiautomatic guns.
Kolbe, 849 F.3d at 125 (quotations and citations
omitted). This rationale is equally applicable to SB707’s prohibition on rapid fire trigger activators, which
are designed to enable a rate of fire approaching that
of fully automatic guns. (Amicus Brief at 8–9.) See also
DOJ Notice of Proposed Rulemaking, 83 Fed. Reg. at
13444 (describing the development of bump stocks as
motivated by a desire for “affordable” alternatives to
automatic weapons). The Maryland Legislature considered the ability of bump stocks and similar devices
to inflict mass injury and mass casualties with great
speed, as well as their use to horrific effect in Las
Vegas. See S. Judicial Proceedings Comm. Floor Rep.
at 4; Testimony of Sen. Ramirez at 1–2. It then
concluded that these devices pose such an unreasonable risk to public safety that they should be banned
from Maryland.
Based on this legislative and constitutional history,
the Court concludes that SB-707 falls well within
Maryland’s traditional police power to define and ban
ultra-hazardous contraband.
ii. The Supreme Court did not reject all
consideration of traditional state police
powers in all Takings Clause analyses.
Plaintiffs insist that, under current Supreme Court
precedent, “the Takings inquiry is completely inde-

61a
pendent of the State’s police power.” (Opp’n Mot. Dismiss at 3.) Primarily relying on the Court’s decision in
Lucas v. S.C. Coastal Council, 505 U.S. 1003 (1992),
they argue that proper exercises of the police power
cannot prevent a regulation from being a compensable
taking. (Opp’n Mot. Dismiss at 7–8, 11, 14.) In Plaintiffs’ view, a state’s power to declare dangerous property to be contraband will always be constrained by an
obligation to pay just compensation if possession is
banned—in effect, states cannot completely ban any
item of personal property, no matter how dangerous,
and no matter how compelling the state’s interest in
doing so, without compensating all individuals in the
state who happen to already own it. (Mot. Dismiss
Mem. Supp. at 12 (“Taken to its logical conclusion, the
plaintiffs’ theory would require the state to pay compensation [for new prohibitions on] . . . yet-to-be-developed drugs, poisons, toxic materials, explosives and
the like.”).) Although the Court must construe factual
allegations in Plaintiffs’ favor, the Court need not
accept their interpretation of the law. Wag More Dogs,
680 F.3d at 365. Here, Plaintiffs’ reliance on Lucas
overstates that case’s conclusions.
Lucas does acknowledge an inherent tension in
subjecting takings inquiries in their entirety “to unbridled, uncompensated qualification under the police
power,” because, at the extreme, all property rights
could be destroyed under that rationale. 505 U.S. at
1014. However, the Supreme Court’s answer to this
conundrum is not to dismiss traditional police power
justifications entirely, but, rather to subject such
justifications to a certain degree of scrutiny, depending on the nature of the taking alleged—physical or
regulatory, real or personal property. In a limited
number of contexts, the Court applies per se rules,
under which the very nature of the state action

62a
qualifies as a categorical taking, irrespective of the
asserted justification. Id. at 1015 (“We have . . .
described [a limited number of] discrete categories of
regulatory action as compensable without case-specific
inquiry into the public interest advanced in support of
the restraint.”).4
Outside of these categorical exceptions, the state’s
asserted justification for a regulation remains a relevant and important consideration. In Lucas, the Court
reiterated this principle, noting that, although the
language employed in takings analyses changed over
time, the underlying principle remained consistent:
The ‘harmful or noxious uses’ principle
[employed in early cases] was the Court’s
early attempt to describe in theoretical terms
why government may, consistent with the
Takings Clause, affect property values by
regulation without incurring an obligation
to compensate—a reality we nowadays
acknowledge explicitly with respect to the full
scope of the State’s police power.
Id. at 1022–23; see also Penn Cent. Transp. Co., 438
U.S. at 125 (“[I]n instances in which a state tribunal
reasonably concluded that ‘the health, safety, morals,
or general welfare’ would be promoted[,] . . . this Court
has upheld land-use regulations that destroyed or
adversely affected recognized real property interests
[without compensation].”); Nollan v. Cal. Coastal
Comm’n, 483 U.S. 825, 834 (1987) (“[L]and-use
regulation does not effect a taking if it ‘substantially
advance[s] legitimate state interests . . . .’”). The

4

Recognized categories to which per se rules apply are discussed infra, Section IV.A(iii).

63a
holding in Lucas is entirely consistent with these
background principles. 505 U.S. at 1026, 1028.
Of particular relevance to this case, Lucas distinguishes between real and personal property in discussing the extent to which the police power informs
property rights and takings analyses:
[O]ur ‘takings’ jurisprudence . . . has traditionally been guided by the understandings of
our citizens regarding the content of, and the
State’s power over, the ‘bundle of rights’ that
they acquire when they obtain title to property. It seems to us that the property owner
necessarily expects the uses of his property to
be restricted, from time to time, by various
measures newly enacted by the State in
legitimate exercise of its police powers; ‘[a]s
long recognized, some values are enjoyed
under an implied limitation and must yield to
the police power.’ And in the case of personal
property, by reason of the State’s traditionally
high degree of control over commercial dealings, he ought to be aware of the possibility
that new regulation might even render his
property economically worthless . . . . In the
case of land, however, . . . the notion . . . that
title is somehow held subject to the ‘implied
limitation’ that the State may subsequently
eliminate all economically valuable use is
inconsistent with the historical compact
recorded in the Takings Clause that has
become part of our constitutional culture.
Id. at 1027–28 (emphases added) (citations omitted)
(quoting Pa. Coal Co. v. Mahon, 260 U.S. 393, 413
(1922)). The Lucas Court limited its skepticism of
justifications based on the police power to those

64a
cases in which the State “eliminate[s] all economically
valuable use” “of land.” Id. (emphasis added). Simultaneously, the Court expressly recognized that personal
property is held “subject to an implied limitation”
greater than the implied limitation on real property
and, under that limitation, interests in personal property occasionally “must yield to the police power.” Id.
Indeed, legitimate exercises of the police power may
even render personal property “worthless.” Id. Lucas,
therefore, reaffirmed the appropriate and important
role for the police power in property regulations in
certain contexts, including many involving personal
property. This is a far cry from the wholesale rejection
of the police power that Plaintiffs attribute to Lucas.
At its broadest, Lucas might be read to suggest
that this rationale limiting police power justifications
extends to other contexts in which, like Lucas, a per se
rule applies, but it extends no further. Plaintiffs
attempt to characterize another landmark takings
case, Horne v. Department of Agriculture, 135 S. Ct.
2419 (2015), as rejecting that limited reading of Lucas
and extending its rationale to all takings cases. Horne
did no such thing. Like Lucas, the Horne majority
similarly reiterated the appropriate role of the police
power in some property regulations. 135 S. Ct. at 2427
(distinguishing regulatory from physical takings in
considering the police power, and holding that only
physical takings apply equally to real and personal
property alike). Therefore, even under the broadest
reading of Lucas, the Court will not ignore the
compelling nature of Maryland’s interest in passing
SB-707 unless Plaintiffs first plausibly allege a per se
taking under a categorical rule recognized by the
Supreme Court. As discussed below, Plaintiffs fail to
do so.

65a
iii. Plaintiffs fail to allege a taking under any
of the per se theories recognized by the
Supreme Court.
There are three categories of takings to which the
Supreme Court has applied per se rules: (1) cases
involving direct, physical appropriations (so-called
“physical takings”), in which government takes title to
or “physically takes possession of” real or personal
property “for its own use,” see Horne, 135 S. Ct. at 2425
(first quoting Ark. Game & Fish Comm’n v. United
States, 568 U.S. 23, 31 (2012); then quoting TahoeSierra Pres. Council, Inc. v. Tahoe Regional Planning
Agency, 535 U.S. 302, 324 (2002)); (2) cases in which
a regulation “denies all economically beneficial or
productive use of land,” see Lucas, 505 U.S. at 1015;
and (3) cases in which regulations compel a landowner
to suffer “a permanent physical occupation of real
property,” see Loretto v. Teleprompter Manhattan
CATV Corp., 458 U.S. 419, 427 (1982). SB-707 falls
into none of these categories.5
The per se rules exemplified by Lucas and Loretto do
not apply to this case, because, by their very terms,
they are limited to real property. See Lucas, 505 U.S.
at 1119, 1028 (describing its holding as pertaining to
“owner[s] of real property” and “the case of land”); id.
at 1015–16 (positioning the opinion as part of a line of
land use cases involving, e.g., inverse condemnation,
subsurface mining rights, and government-mandated
easements); Horne, 135 S. Ct. at 2427 (construing
Lucas to mean that “implied limitations” under the
5

Plaintiffs exclusively allege a per se theory. (Compl. at ¶¶ 49,
52.) They do not assert a regulatory taking under the ad hoc
balancing test laid out in Penn Central Transportation Co. v. New
York City, 438 U.S. 104 (1978). Accordingly, the Court will not
evaluate their claim under that test.

66a
police power are “not reasonable in the case of land”);
Loretto, 458 U.S. at 427 (applying a per se rule to “a
permanent physical occupation of real property”); cf.
Lucas, 505 U.S. at 1015 (discussing Loretto as aligned
with past land-use cases involving airspace and
a navigation servitude on a private marina). This
reading is consistent with Fourth Circuit precedent, as
well. See Holliday Amusements Co., 493 F.3d at 411
n.2 (“Lucas by its own terms distinguishes personal
property.”).
Plaintiffs assert that the distinction between real
and personal property was “soundly rejected” by the
Supreme Court in Horne, such that all takings theories now apply to real and personal property alike.
(Opp’n Mot. Dismiss at 8.) In Plaintiffs’ reading, Horne
effectively threw out a century or more of Takings
Clause jurisprudence, obliterating the traditional
distinctions between real and personal property, and
between direct, physical appropriations and regulations. (See id. at 14 (arguing that pre-Horne cases did
not “survive” as binding precedent); see also Mot.
Dismiss Mem. Supp. at 12.) But, Horne never characterized its holding as overruling precedent. Plaintiffs’
theory suggests the Supreme Court overruled not just
a single case but decades of jurisprudence without ever
expressly acknowledging that its holding represented
a radical break from the past. This Court would
decline to apply such a breathtaking sweep to Horne
even if the Supreme Court had been silent as to the
scope of its ruling; however, the Court plainly positioned its holding as leaving past approaches intact.
First, Horne traced the development of Takings
Clause jurisprudence into two strands: direct government appropriations of property, which were the only
kind of takings originally recognized; and regulatory

67a
takings, which were first acknowledged in early
twentieth century cases. Horne, 135 S. Ct. at 2427.
Then, the majority repeatedly limited its holding, that
a per se rule applied to real and personal property
alike, to the first strand—that is to “direct appropriations” or “government acquisitions of property” only.
Id.; see also id. at 2425 (holding that a per se rule
applied when the government “physically takes possession of an interest in property”). Far from claiming
to overrule past cases, Horne positioned this holding
as consistent with precedent, including Lucas: “The
different treatment of real and personal property in a
regulatory case . . . [does] not alter the established rule
of treating direct appropriations of real and personal
property alike.” Id. at 2427–28 (emphases added).
Finally, the Court acknowledged that, because the two
strands are distinct, “[i]t is ‘inappropriate to treat
cases involving physical takings as controlling precedent for the evaluation of a claim that there has been
a ‘regulatory taking,’ and vice versa.” Id. at 2428
(quoting Tahoe-Sierra Pres. Council, 535 U.S. at 323).
Thus, the Court made clear that its rejection of a
distinction between real and personal property under
the Takings Clause only applied to cases involving
direct, physical appropriations. As such, the per se
rules defined in Lucas and Loretto remain limited to
real property. They do not apply to Maryland’s ban on
rapid fire trigger activators.
Plaintiffs have also failed to plausibly allege a per se
taking under Horne’s direct appropriation rule. The
challenged regulation in Horne constituted a physical
taking because it mandated that private property
owners transfer title and possession of personal
property directly to the government. Id. at 2424 (“The
[challenged order] requires growers in certain years to
give a percentage of their crop to the Government, free

68a
of charge. . . . [A government body] acquires title to the
reserve raisins that have been set aside, and decides
how to dispose of them in its discretion.”). Plaintiffs
argue that SB-707 “depriv[es] plaintiffs of physical
possession of their property, just as the federal government in Horne physically deprived the plaintiff . . . of
physical possession of the raisins.” (Opp’n Mot.
Dismiss at 8–9). That is, Plaintiffs claim that their
rapid fire trigger activators have been “actually
occupied or taken away,” “directly appropriat[ed],” and
“physically surrender[ed],” just like the raisins in
Horne. (Id. at 8 (quoting Horne, 135 S. Ct. at 2427,
2429).) But, Horne was not a case about a regulation
that burdened possession in a way that might be
considered analogous to government confiscation of
personal property; Horne was a case about actual
government confiscation of personal property. Its holding places a critical emphasis on that fact. Horne, 135
S. Ct. at 2428 (“The reserve requirement . . . is a clear
physical taking. Actual raisins are transferred from
the growers to the Government. Title to the raisins
passes to [a government entity].”). The Court acknowledged that an indirect regulation with the “same
economic impact” on raisin growers would have been
permissible, even though direct confiscation was not,
because “[t]he Constitution . . . is concerned with
means as well as ends.” Id. It is undisputed in this case
that SB-707 involves neither a confiscation of rapid
fire trigger activators by the State of Maryland, nor a
mandate for Plaintiffs to cede title to or possession of
them to the State. Therefore, SB-707 does not effect a
direct government appropriation of rapid fire trigger
activators under Horne.6
6

In a few places, the Horne majority implies that Loretto,
which involved a law requiring a landowner to permit permanent

69a
Thus, Plaintiffs do not assert a per se taking under
any of the three discrete categories recognized by the
Supreme Court. Instead, Plaintiffs’ propose a new per
se rule: that “[b]anning possession is a per se taking.”
(Opp’n Mot. Dismiss at 7.) No Supreme Court or
Fourth Circuit precedent has ever adopted such a rule.
Plaintiffs attempt to locate their rule in Loretto,
arguing that banning possession is a per se taking
because it is “so onerous that its effect is tantamount
to a direct appropriation or ouster.” (Opp’n Mot.
Dismiss at 14.) However, this quoted language, which
Plaintiffs repeatedly misattribute to Loretto, does not

physical occupation of its rooftop by a private third party, could
be understood as a physical taking case. See 135 S. Ct. at 2426
(citing Loretto, 458 U.S. at 426–35); id. at 2427 (citing Loretto,
458 U.S. at 435). If so, Horne might suggest that Loretto’s
rationale—in which a private third party is granted possession,
rather than the government—could apply equally to personal
property. At most, this might mean that a regulation mandating
that title or possession of personal property be permanently
transferred to a private third party would also qualify as a per se
physical taking. However, any such implication was not essential
to Horne’s holding, because Horne—which involved direct government confiscation of the raisins—was not that case. Because SB707 does not purport to allocate permanent possession of Plaintiffs’ rapid fire trigger activators to private third parties, this is
not that case either.
Plaintiffs cite no case in which a burden on possession of
personal property was found to be violate the Constitution unless
direct government appropriation was involved. See Nixon v.
United States, 978 F.2d 1269, 1285 (D.C. Cir. 1992) (“[T]he Act
authorized [a government official] to assume complete possession
and control of [the] presidential papers.”); see also Serio v.
Baltimore Cty., 863 A.2d 952, 966 (Md. 2004) (police and County
officials seized and retained a handgun in violation of due
process). Thus, Plaintiffs’ fail to identify any case law supporting
their expansive reading of Horne.

70a
appear anywhere in that case.7 Plaintiffs’ purported
per se rule is thus rooted in a perplexing and

7

In what appears to be, at best, a gross oversight in Plaintiffs’
legal research, the quoted language Plaintiffs misattribute to
Loretto, about regulation “so onerous that its effect is tantamount
to a direct appropriation or ouster,” appears to have originated in
a different opinion, never cited by Plaintiffs, and issued more
than twenty years after Loretto: Lingle v. Chevron U.S.A. Inc.,
544 U.S. 528, 537 (2005). Even had Plaintiffs correctly attributed
the language to Lingle, it would still fail to support their proposed
per se rule.
Lingle, which involved a challenge to a Hawaii law limiting the
amount of rent oil companies could charge for company-owned oil
stations, was a regulatory takings case involving restriction of a
commercial use of real property. Id. at 533. It neither created nor
applied any per se rules, and it did not discuss personal property
regulations at all. The misquoted language appears in a passage
describing general developments in the history of Takings Clause
jurisprudence, as a paraphrase of Pennsylvania Coal v. Mahon,
the milestone case first recognizing the possibility that a land
regulation not involving government appropriation might nonetheless be compensable if it “goes too far.” Id. at 537 (quoting
Mahon, 260 U.S. at 415). At most, the Lingle Court was thus
expressing a general background principle about regulatory takings, but it did not put forth “tantamount to a direct appropriation or ouster” as a doctrinal test—not in general, and not as a
test for identifying new per se rules. Rather, in the ensuing
paragraphs, the Lingle majority explicitly recounted the three
recognized tests courts should apply to non-physical, regulatory
takings claims: the per se rule exemplified by Lucas (which this
Court already concluded does not apply to this case); the per se
rule exemplified by Loretto (which this Court similarly concluded
does not apply here); and the multi-factor balancing test
announced in Penn Central (which Plaintiffs do not allege as a
theory of relief). Id. at 538–40. The primary purpose of the Lingle
opinion was to resolve confusion about the appropriate doctrinal
tests for takings, and whether a ban on personal property is
“tantamount to direct appropriation” is not one of the tests it
identified. See id. at 548.

71a
unambiguous misstatement of the rule announced in
Loretto—a rule that, as already discussed, does not
govern this case. See supra pp. 16–18, 19 n.6.
Plaintiffs also rely heavily on Andrus v. Allard, 444
U.S. 51 (1979), in which the Supreme Court concluded
that a ban on the sale of eagle feathers did not
constitute a taking, as another ostensible source of
their per se rule. Plaintiffs emphasize that, in that
case, the challenged regulation “[did] not compel
surrender of the artifacts,” there was “no physical
invasion” of them, and existing feather owners
“retain[ed] the right to possess and transport their
property.” (Opp’n Mot. Dismiss at 9–10 (citing Andrus,
444 U.S. at 65–66).) According to Plaintiffs, Andrus
and Horne together make possession “dispositive” of a
per se taking. (Id. at 10.) However, Plaintiffs’ reading
flips the holding in Andrus on its head. Andrus held
that, where a property owner retains possession,
control, and non-sale disposition rights in personal
property, a taking has not occurred. 444 U.S. at 66–68.
Plaintiffs also imply that Horne extended the per se rule they
incorrectly attribute to Loretto to the context of personal property. (Opp’n Mot. Dismiss at 14.) However, Horne never used the
misquoted language, either; the majority never cites Lingle at all.
Horne, 135 S. Ct. at 2424–33. It could not have adopted language
it never used as the doctrinal test for per se takings of personal
property.
There is one final irony in Plaintiffs’ puzzling and mistaken
reliance on this language from Lingle. In Lingle’s opening line,
the Court remarked that “[o]n occasion, a would-be doctrinal rule
or test finds its way into our case law through simple repetition
of a phrase—however fortuitously coined.” Lingle, 544 U.S. at
531. This is precisely what Plaintiffs attempt to do with an outof-context, misquoted phrase—improperly transform it into a
“would-be doctrinal rule.” Even if properly attributed, this Court
would decline to take the bait.

72a
Andrus never draws a bright line rule making the
retention of all those rights—or of any one of them—
dispositive in favor of finding a taking. Nor did Horne
read Andrus to create such a rule. In Horne, the
Court distinguished Andrus because, unlike the eagle
feather regulation, “the raisin program requires physical surrender of the raisins and transfer of title” to the
government. 135 S. Ct. at 2429. Possession alone was
not the dispositive factor.8 Cf. Serio, 863 A.2d at 966
(finding the plaintiff to retain meaningful property
rights despite a ban on personal possession). Unlike
Horne, SB-707 does not require Plaintiffs to physically
surrender their devices or transfer title to the government.
The only case providing support for Plaintiffs’ theory
that possession bans are per se takings is a recent
Ninth Circuit case. Duncan v. Becerra, Civ. No. 1756081, 2018 WL 3433828 (9th Cir. July 17, 2018), aff’g
265 F. Supp. 3d 1106 (S.D. Cal. 2017). Notably, that
case affirmed, under an abuse of discretion standard,
a district court decision that conflicts with binding
Fourth Circuit precedent on crucial questions, including whether large-capacity magazines are protected by
the Second Amendment and the scope of Lucas’s
limitation on the police power. Compare Duncan, 2018
WL 3433828, at *1 (no abuse of discretion in finding
that the Second Amendment protects large capacity
magazines), and id. at *3 (affirming the district court’s
8

It is also worth noting that, unlike in Horne, Plaintiffs indisputably retain rights to possess, transfer, or use rapid fire trigger
activators outside of Maryland. (Mot. Dismiss Mem. Supp. at 9,
10 n.6; Opp’n Mot. Dismiss at 26–27 (acknowledging but dismissing possible out-of-state uses).) However, the Court’s conclusion
that no taking has occurred does not depend on these out-of-state
uses.

73a
reliance on Lucas to reject California’s police power
justification for its regulation of personal property),
with Kolbe v. Hogan, 849 F.3d at 137 (finding no
Second Amendment protection for large-capacity magazines), and Holliday Amusements Co., 493 F.3d at
411 n.2 (limiting Lucas’s dismissal of police power
justifications to real property). A single case in a noncontrolling jurisdiction that is inconsistent with
binding authority on related legal questions is not
enough to overcome the weight of authority against
Plaintiffs’ position.
Thus, reading all alleged facts in Plaintiffs’ favor,
Plaintiffs failed to plausibly allege a per se taking
under any theory recognized in federal Takings Clause
jurisprudence. Accordingly, Count I will be dismissed
in full, and Count II will be dismissed insofar as it
relies on federal law to establish a per se taking under
the Maryland Constitution.
B. Abrogation of Vested Rights (Counts II
and V)
Plaintiffs allege a separate per se theory under the
Maryland Constitution. Plaintiffs argue that SB-707
“abrogate[es] a vested property right” in violation of
Article 24’s protection against “retrospective statutes,”
and that an Article 24 violation, in turn, constitutes a
taking under Article III, § 40. (Compl. ¶¶ 68–73; see
also id. ¶ 52.) Under Maryland law, “retrospective
statutes are those that ‘would impair rights a party
possessed when he acted, increase a party’s liability
for past conduct, or impose new duties with respect to
transactions already completed.’” (Id. ¶ 72 (quoting
Muskin v. State Dep’t of Assessments & Taxation, 30
A.3d 962, 969 (Md. 2011)).) According to Plaintiffs, SB707 violates this rule because Plaintiffs have a “vested
property interest in the possession of their devices,” a

74a
right that was abrogated when SB-707 made future
possession of those devices unlawful. (Id. at ¶ 68.)
The first problem with this theory is that it is not at
all clear how SB-707’s provisions can be understood to
operate retrospectively. It is not as if SB-707 rendered
Plaintiffs’ past lawful purchases of rapid fire trigger
activators to have been unlawful as of the date of
purchase; nor did it retroactively impose the exception
clause’s authorization requirements. Such effects
would have “increas[ed] . . . liability for past conduct,”
or “impair[ed] rights” and “impos[ed] new duties with
respect to transactions already completed.” Muskin,
30 A.3d at 969. By its terms, SB-707 operates on a
purely prospective basis: passed in April 2018, it bans
in-state possession after October 1, 2018, with the
exception of authorization requirements that go into
effect gradually, first in October 2018 and then in
October 2019. SB-707, sec. 4. This statutory structure
is not retrospective, as Plaintiffs define the term under
Maryland law.
There is a second, even more fundamental flaw in
Plaintiffs’ theory. Plaintiffs provide no authority for
the proposition that Maryland law recognizes, under
Article 24, “vested” rights to possess tangible personal
property like rapid fire trigger activators in perpetuity. The cases cited by Plaintiffs concern vested rights
to real property, contract rights, and previously
accrued causes of actions—none pertains to personal
property. See Muskin, 30 A.3d at 971 (reversionary
rights in ground rent leaseholds); Dua v. Comcast
Cable of Md., 805 A.2d at 1078 (rights under preexisting contracts); id. (accrued cause of action limited
by a new statute of limitation).
Plaintiffs emphasize that Maryland law “may
impose greater limitations” on the abrogation of vested

75a
property rights than federal law. (Compl. ¶ 71 (quoting
Muskin, 30 A.3d at 968–69 (indicating that Maryland
law may be broader than federal counterparts “under
some circumstances”)).) Even if so, that does not
necessarily mean that Maryland’s “vested rights”
jurisprudence equally encompasses all property rights
without regard for the nature of the property in
question. To the contrary, the Maryland Court of
Appeals, in discussing the scope of Article 24’s
protection of “vested” rights, made explicit that some
categories of property— namely contract rights and
real property—are more strongly protected than
others. See, e.g., Muskin, 30 A.3d at 972 (“[I]n the
spectrum of vested rights recognized previously by
this Court, [vested causes of action] are not as
important as the vested real property and contractual
rights which have almost been sacrosanct in our
history.”); id. at 974 (similarly emphasizing the
central importance of “[r]eal property and contractual
rights” as “the basis of economic stability”). Plaintiffs
have not identified a single Maryland case suggesting
that rights in tangible personal property can “vest” for
the purposes of Article 24.
The Court therefore concludes that Plaintiffs’ per se
theory under Maryland law also fails.9 Accordingly,
Counts II and V will be dismissed.
9

Plaintiffs also cite Steuart v. City of Baltimore, 7 Md. 500
(1855), for the proposition that bills passed by the Maryland
Legislature that take property are void if they do not include a
provision for compensation “being first paid.” (Compl. ¶ 25.) In
Steuart, the Court of Appeals concluded that no taking occurred
where a plaintiff had already accepted payment and still
remained “secure[] in the use and enjoyment of his property.” 7
Md. at 516. It does not appear to announce a rule about the
required remedy in the event a law does effect a taking but fails
to provide for compensation by its own terms. However, because

76a
C. Void for Vagueness (Count IV)
Plaintiffs next argue that SB-707 is unconstitutionally vague in defining a rapid fire trigger activator as
“any device . . . constructed so that, when installed in
or attached to a firearm[,] the rate at which the trigger
is activated increases; or the rate of fire increases.”
(Compl. ¶ 61 (emphasis added) (quoting § 4-301(M)(1)).)
According to Plaintiffs, this definition can be read to
encompass any number of firearm accessories that
“allow for faster, controlled follow-up shots” and,
therefore, might “increase, by some small measure,
the effective ‘rate of fire.’” (Id. at ¶ 62.) Plaintiffs cite
muzzle weights, fore grips, recoil-reducing devices,
and devices that redirect flash as items that could be
covered by this reading of SB-707. (Id.) In addition,
because the Act does not by its terms limit its scope to
devices that operate on semiautomatic weapons,
Plaintiffs further claim that accessories that “permit a
user to more rapidly reload a revolver” could also be
interpreted as minimally increasing the “rate of fire.”
(Id. at 63.) For these reasons, Plaintiffs argue that the
Act fails to provide “fair notice of the conduct [it]
proscribes” and risks “arbitrary and discriminatory
law enforcement,” in violation of due process. (Id. at ¶
60 (quoting Sessions v. Dimaya, 138 S. Ct. 1204, 1212
(2015)).)
The Court cannot reach the merits of Plaintiffs’
vagueness claim, because Plaintiffs failed to establish
standing with respect to this count of the Complaint.
Although Defendant’s motion was filed as a motion to
dismiss for failure to state a claim under Rule 12(b)(6),
the Court concludes that SB-707 does not constitute a taking, the
Court need not consider what the appropriate remedy would have
been, had a taking occurred.

77a
the Court may construe the motion as one filed under
Rule 12(b)(1) when the Court’s subject matter
jurisdiction is implicated. Hawkins v. Elaine Chao,
Civ. No. JKB-16-3752, 2017 WL 5158349, at *1 (D. Md.
Nov. 7, 2017).
In mounting a pre-enforcement facial challenge to a
criminal law, a plaintiff can establish constitutional
standing by demonstrating (1) “an intention to engage
in a course of conduct arguably affected with a constitutional interest,” and (2) a “credible threat of prosecution” under the Act. Hamilton v. Pallozzi, 165 F. Supp.
3d 315, 320 (D. Md. 2016) (quoting W. Va. Citizens Def.
League, Inc. v. City of Martinsburg, 483 F. App’x 838,
839 (4th Cir. 2012) (per curiam)), aff’d, 848 F.3d 614
(4th Cir. 2017); see also Babbitt v. United Farm
Workers Nat’l Union, 442 U.S. 289, 298 (1979) (requiring “a realistic danger of sustaining a direct injury as
a result of the statute’s operation”). At the motion
to dismiss stage, Plaintiffs bear the burden of alleging sufficient facts, considered in the light most favorable to them, to support subject matter jurisdiction.
Wikimedia Found. v. Nat’l Sec. Agency, 857 F.3d 193,
208 (4th Cir. 2017). “When plaintiffs ‘do not claim that
they have ever been threatened with prosecution [or]
that a prosecution is likely,’ . . . they do not allege a
dispute susceptible to resolution by a federal court.”
Babbitt, 442 U.S. at 298–99 (quoting Younger v.
Harris, 401 U.S. 37, 42 (1971)).
Here, Plaintiffs do not allege any facts suggesting a
“credible threat” that the Act will be enforced in
accordance with Plaintiffs’ broad reading. Plaintiffs do
not claim to have been threatened with prosecution on
the basis of their possession of the additional devices
as to which SB-707 is allegedly vague. Nor do they
allege that any state official with enforcement author-

78a
ity has made statements or taken actions from which
the Court might infer intent to prosecute in such a
manner. All Plaintiffs allege is that a literal reading
of one clause of SB-707’s definition of a rapid fire
trigger activator, taken in isolation from the additional provisions that make up the definition section,
might encompass devices that Plaintiffs themselves
acknowledge are not “in anyway [sic] akin to” and do
not “function like” the devices specifically named as
“rapid fire trigger activators” in the Act. (Compl. ¶ 64.)
In order for Plaintiffs to face a risk of “direct injury”
from overbroad enforcement, Babbitt, 442 U.S. at 298,
an enforcement agent would need to conclude that a
“rapid fire trigger activator” includes accessories that,
in Plaintiffs’ own words, do not “attach[] to or serve to
operate the trigger” (Compl. ¶ 64), and then actually
attempt to enforce the Act accordingly, without any
superseding authority intervening. Plaintiffs simply
have not alleged any facts suggesting that the threat
of such enforcement rises above pure “speculation”
and “conjecture.” City of Los Angeles v. Lyons, 461 U.S.
95, 108 (1983) (dismissing as “conjecture” the notion
that police will routinely enforce the law unconstitutionally and as “speculation” the possibility that the
plaintiff would be part of a traffic stop in future that
would lead to an arrest and provoke the use of a
chokehold).
Because Plaintiffs have not alleged facts from which
the Court could infer a credible threat of prosecution,
Plaintiffs lack standing to mount a pre-enforcement
challenge on vagueness grounds. Accordingly, Count
IV will be dismissed. Plaintiffs are free to return to the
courts later should there be an actual record or imminent threat of enforcement on the grounds alleged.

79a
D. Impossibility of Complying with the Exception Clause (Count III)
Plaintiffs’ final claim is that SB-707 violates due
process, because the ATF’s position that it is “without
legal authority” to process applications for authorization makes it legally impossible for Plaintiffs to comply
with the Act’s exception clause. (Compl. ¶ 34.) See also
ATF Special Advisory. Plaintiffs further argue that
the invalid exception clause cannot be severed from
the rest of SB-707 under a “long-established” rule of
statutory interpretation:
[W]here the Legislature enacts a prohibition
with an excepted class, and a court finds that
the classification is constitutionally infirm,
the court will ordinarily not presume that the
Legislature would have enacted the prohibition without the exception, thereby extending
the prohibition to a class of persons whom the
Legislature clearly intended should not be
reached.
(Id. ¶ 36 (quoting State v. Schuller, 372 A.2d 1076,
1083 (Md. 1977)).) Therefore, Plaintiffs conclude, SB707 must be struck down in its entirety. (Id. ¶ 38.)
Assuming that ATF’s announced position makes it
completely impossible for any individual to obtain
authorization prior to the 2019 deadline, Plaintiffs
still fail to state a plausible claim for relief.10 Even if it
10

The impossibility of obtaining authorizations is not a foregone conclusion. The authorization requirement does not go into
effect for another eleven months, SB-707, sec. 3, and, at the time
the Special Advisory was issued, ATF was actively reconsidering
the legal status of bump stocks and similar devices under federal
law. See DOJ Notice of Proposed Rulemaking, 83 Fed. Reg. at
13442. As yet, no final decision has been announced. Therefore,

80a
is impossible to access the exception in SB-707, it is
not impossible to comply with the statute overall. The
statute does not obligate current owners of prohibited
devices to obtain ATF authorization; it obligates them
not to possess rapid fire trigger activators within the
state of Maryland, unless they obtain ATF authorization prior to the statutory deadline. §§ 4-305.1(a), (b).
In the absence of authorization, Plaintiffs can fully
comply with the statute by moving, storing, or selling
their devices out of state, or by destroying them.
Plaintiffs offer no facts suggesting any of these alternative means of compliance is impossible.
A comparison to Hughey v. JMS Dev. Corp., relied
on by Plaintiffs, is instructive. In Hughey, the Eleventh Circuit dissolved an injunction against defendant
JMS under the citizen suit provision of the Clean
Water Act (CWA), because it concluded that compliance with the CWA was impossible under the circumstances. 78 F.3d 1523, 1530 (11th Cir. 1996). The
substantive provision at issue imposed a “zero
discharge” standard for rain water runoff on JMS,
unless the discharge was made in accordance with the
terms of a permit issued under EPA authority. Id. at
1524–25. In JMS’s case, the Georgia Environmental
Protection Division (EPD) would have had to issue
such a permit, because the EPA had previously designated EPD as the exclusive authority to administer
the program within Georgia. Id. at 1525. At the time
JMS was in operation, JMS could not obtain a federal
it is not beyond the realm of possibility that the ATF might alter
its position at some point before the statutory deadline expires.
However, because all facts and inferences must be construed in
Plaintiffs’ favor at this stage, the Court assumes that ATF
authorization will be impossible to obtain for the purposes of this
analysis.

81a
permit because of the grant of exclusive authority to
EPD, but EPD permits were not yet available. Id. at
1525–26. However, the permit’s unavailability, on its
own, did not render compliance impossible. In addition, the evidence was “uncontroverted” that compliance with a zero-discharge standard for rain water
was factually impossible under any circumstance,
because “whenever it rained[,] . . . some discharge was
going to occur.” Id. at 1530. JMS “could not stop the
rain water that fell on [its] property from running
downhill, and [in fact] nobody could.” Id. Importantly,
JMS could not even “abate the discharge . . . by ceasing
operations.” Id. Therefore, the mere fact that a permit
to access the statutory exception was unavailable was
not enough to render compliance impossible. It was
the combination of a legally unavailable permit alongside the factual impossibility of achieving substantive
compliance through any other means, including halting operations entirely. The contrast to this case is
plain: while it may be impossible for Plaintiffs to
access the exception, substantive compliance remains
fully within Plaintiffs’ control. To comply, all they need
to do is move the banned devices out of state or get rid
of them altogether.
In other cases cited by Plaintiffs, the unavailability
of an exception itself created a constitutional problem.
See, e.g., Broderick v. Rosner, 294 U.S. 629, 639, 647
(1935) (holding that the impossibility of fulfilling the
requirements of an exception permitting New Jersey
courts to exercise jurisdiction violated the Full Faith
and Credit Clause); Ezell v. City of Chicago, 651 F.3d
684, 708 (7th Cir. 2011) (enjoining ordinances preventing access to gun ranges, where the City mandated
range training as a condition of lawful handgun
possession, and, therefore, such access implicated

82a
Second Amendment rights).11 As discussed supra,
Plaintiffs have failed to establish a plausible claim
under any of their other constitutional theories. None
of the Court’s conclusions in dismissing those constitutional claims predicated the constitutionality of SB707 on the existence of an accessible exception clause.
In short, the factual impossibility of obtaining authorization for continued lawful ownership in Maryland
11

Plaintiffs also cite United States v. Dalton, 960 F.2d 121
(10th Cir.1992), but Dalton’s reasoning, which is non-binding on
this Court in any event, does not extend to this case either. First,
the statutes at issue in Dalton are distinguishable. In that case,
the defendant was convicted of violating provisions of the
Internal Revenue Code criminalizing possession of an unregistered machine gun and failure to register a machine gun. I.R.C.
§§ 5861(d), (e). The Tenth Circuit reversed the convictions after
concluding that, for both statutes, the central conduct that was
criminalized was a failure to register, but registration was legally
impossible under a later statute. Id. at 122, 124 (finding that the
inability to register the gun was “undisputed,” and that “the
failure to register is a fundamental ingredient of [the I.R.C.
provisions]”). However, all parties agreed that there would have
been no ground for objection had the defendant been tried and
convicted for violating the later statute, 18 U.S.C. § 922(o), which
criminalized possession, rather than failure to register. Dalton,
960 F.2d at 123. Dalton is thus limited to the specific statutory
scheme under the I.R.C., which “clearly evince[d] Congress’s
intent that the Act regulate machineguns through a proper exercise of the taxing power,” rather than through an outright ban.
Id. at 124.
Second, and more importantly, Dalton is a post-conviction
challenge, not a pre-enforcement suit. The defendant sought
relief from a specific criminal penalty imposed under specific
circumstances. Here, Plaintiffs seek to invalidate SB-707’s statutory scheme in toto. Although the Tenth Circuit reversed the
convictions, nothing in Dalton even remotely suggests that the
underlying prohibition on possession was invalid or that the
defendant therefore retained a right to possess the firearm in
question—which is ultimately what Plaintiffs seek here.

83a
presents no constitutional problem in this case; nor
have Plaintiffs alleged that the exception clause is
itself dependent on any constitutionally suspect classification. Therefore, the exception clause is not invalid.
Plaintiffs’ remaining arguments about severability
need not be addressed, because there has been no
threshold finding that any provision of the law is
unconstitutional or otherwise invalid. See O.C. Taxpayers for Equal Rights, Inc. v. Mayor & City Council
of Ocean City, 375 A.2d 541, 551 (Md. 1977) (holding
that a voting restriction contained an “invalid exception” that violated equal protection before considering
severability); Schuller, 372 A.2d at 1082, 1083–84
(first concluding that an exception to an anti-picketing
statute was “constitutionally infirm” for violating
freedom of speech and equal protection and then
finding that it could not be severed). Having concluded
that SB-707’s exception clause is not invalid, the Court
need not consider whether it would be severable.12
12

Although the Court need not reach the severability question, there are a few aspects of Plaintiffs’ argument that warrant
comment. Plaintiffs seem to read SB-707’s exception clause as
evidence of a clear intent on the part of the Maryland Legislature
to exempt an entire class of existing owners—or at least some of
them—from the prohibition on possession of rapid fire trigger
activators. (See Compl. ¶¶ 33, 36–37.) However, the design of the
statute’s exception clause does not support that conclusion.
Had the Legislature intended to guarantee a path to continued
lawful possession, it could have followed the example of past
Maryland firearms regulations and crafted either a straightforward grandfather clause excepting all lawful purchases prior to
a certain date, see, e.g., Md. Code Ann., Crim. Law § 4-303(b)(2)
(exception to assault long gun ban for licensed dealers in lawful
possession before October 1, 2013), or a registration or authorization requirement involving a state agency to whom the Legislature could have delegated the requisite authority, see, e.g.,
§ 4-303(b) (exception clause in assault pistol ban requiring regis-

84a
Accordingly, Count III will be dismissed.
V. Conclusion
For the foregoing reasons, an order shall enter
granting Defendant’s motion to dismiss (ECF No. 9) as
to all counts of the Complaint. Plaintiff MSI, in its
non-representational capacity, lacks standing to
pursue relief on its own behalf. Accordingly, it will not
be permitted to bring claims in that capacity. As to
Plaintiffs’ remaining claims, Count IV of the Complaint will be dismissed under Federal Rule of Civil
Procedure 12(b)(1), and Counts I, II, III, and V will be
tration with the Maryland State Police); § 4-403(c)(1) (same
requirement in machine gun regulation). Instead, the exception
scheme as enacted made continued lawful possession contingent
on the independent legal and policy decisions of a federal agency
over which Maryland has no control. Furthermore, at the time
SB-707 was enacted, the very federal agency it placed in charge
of authorization was actively reconsidering the status of bump
stocks and similar devices under federal law, including a proposal
to redefine them as machine guns subject to stringent, existing
regulations. DOJ Notice of Proposed Rulemaking, 83 Fed. Reg. at
13442. Because the status of such devices was, at best, unsettled
at the time SB-707 was passed, it seems reasonably foreseeable
that ATF might have decided to deny every single application
received as a matter of federal policy or of binding federal law.
The Court fails to see how such a result—with the same practical
effect for Maryland device-owners as the current ATF position—
would be inconsistent with the statute. Contrary to Plaintiffs’
argument, it is not at all clear from the structure of the exception
procedure that SB-707 embodied a clear legislative intent that
any existing owner be entitled to continued lawful possession of
rapid fire trigger activators in Maryland.
Finally, even assuming, arguendo, that there might be an
independent ground for objection based on the formal distinction
between ATF processing but denying each and every application
and ATF refusing to process any applications at all, a suit against
the State of Maryland is not the proper vehicle for relief.

85a
dismissed under Federal Rule of Civil Procedure
12(b)(6).
DATED this 15th day of November, 2018.
BY THE COURT:
_

/s/

James K. Bredar
Chief Judge

86a
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MARYLAND
[Filed: November 16, 2018]
————
Civil No. JKB-18-1700
————
MARYLAND SHALL ISSUE, et al.
v.

Plaintiffs,

LAWRENCE HOGAN, in his official capacity as
Governor of Maryland
Defendant.
————
ORDER
For the reasons stated in the foregoing memorandum, it is hereby ORDERED:
1. Plaintiff Maryland Shall Issue (MSI) lacks standing to pursue relief on its own behalf, and, accordingly, all of the claims brought in its organizational, non-representational capacity (i.e., its “individual” capacity) are DISMISSED.
2. As to all Plaintiffs, Defendant’s Motion to Dismiss
(ECF No. 9) is GRANTED as to all counts of the
Complaint on the following bases:


Construed as a motion under Federal Rule of
Civil Procedure 12(b)(1), the motion is GRANTED as to Count IV of the Complaint; and



Construed as a motion under Federal Rule of
Civil Procedure 12(b)(6), the motion is further
GRANTED as to all remaining counts of the
Complaint (Counts I, II, III, and V).

87a
3. This case is DISMISSED.
4. The Clerk is directed to CLOSE THIS CASE.
DATED this 15th day of November, 2018.
BY THE COURT:
/s/
James K. Bredar
Chief Judge

88a
APPENDIX D
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend. V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.
U.S. Const. amend. XIV, §1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
MD Constitution, Declaration of Rights, Art. 24
That no man ought to be taken or imprisoned or
disseized of his freehold, liberties or privileges, or
outlawed, or exiled, or, in any manner, destroyed, or
deprived of his life, liberty or property, but by the
judgment of his peers, or by the Law of the land.

89a
MD Constitution, Art. III, §40
The General Assembly shall enact no Law authorizing private property to be taken for public use without
just compensation, as agreed upon between the parties, or awarded by a jury, being first paid or tendered
to the party entitled to such compensation.
MD Code, Criminal Law, § 4-301(m)
(m)(1) “Rapid fire trigger activator” means any
device, including a removable manual or power-driven
activating device, constructed so that, when installed
in or attached to a firearm:
(i) the rate at which the trigger is activated
increases; or
(ii) the rate of fire increases.
(2) “Rapid fire trigger activator” includes a
bump stock, trigger crank, hellfire trigger, binary
trigger system, burst trigger system, or a copy or a
similar device, regardless of the producer or manufacturer.
(3) “Rapid fire trigger activator” does not
include a semiautomatic replacement trigger that
improves the performance and functionality over the
stock trigger.
MD Code, Criminal Law, § 4-305.1
In general
(a) Except as provided in subsection (b) of this
section, a person may not:
(1) transport a rapid fire trigger activator into
the State; or

90a
(2) manufacture, possess, sell, offer to sell,
transfer, purchase, or receive a rapid fire trigger activator.
Exception
(b) This section does not apply to the possession of
a rapid fire trigger activator by a person who:
(1) possessed the rapid fire trigger activator
before October 1, 2018;
(2) applied to the federal Bureau of Alcohol,
Tobacco, Firearms and Explosives before October 1,
2018, for authorization to possess a rapid fire trigger
activator;
(3) received authorization to possess a rapid
fire trigger activator from the federal Bureau of
Alcohol, Tobacco, Firearms and Explosives before
October 1, 2019; and
(4) is in compliance with all federal requirements for possession of a rapid fire trigger activator.
MD Code, Criminal Law, § 4-306(a)
In general
(a) Except as otherwise provided in this subtitle, a
person who violates this subtitle is guilty of a misdemeanor and on conviction is subject to imprisonment
not exceeding 3 years or a fine not exceeding $5,000 or
both.
MD Code, Courts & Judicial Proceedings,
§ 12–603
The Court of Appeals of this State may answer a
question of law certified to it by a court of the United
States or by an appellate court of another state or of a

91a
tribe, if the answer may be determinative of an issue
in pending litigation in the certifying court and there
is no controlling appellate decision, constitutional
provision, or statute of this State.

